<html>
<title> - THE ASSISTANCE TO FIREFIGHTERS GRANT PROGRAM: A VIEW FROM UPSTATE NEW YORK</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                     THE ASSISTANCE TO FIREFIGHTERS
                         GRANT PROGRAM: A VIEW
                         FROM UPSTATE NEW YORK

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2004

                               __________

                           Serial No. 108-63

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-313                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY


                            C O N T E N T S

                             June 21, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Brad Miller, Member, Committee on 
  Science, U.S. House of Representatives.........................    12
    Written Statement............................................    14

                               Witnesses:

Mr. R. David Paulison, U.S. Fire Administrator and Director, 
  Preparedness Division, Emergency Preparedness & Response 
  Directorate/Federal Emergency Management Agency, Department of 
  Homeland Security
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    21

Mr. Michael D. Quill, Chief, Auburn Fire Department
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    27
    Financial Disclosure.........................................    28

Mr. Brian F. McQueen, Chief, Whitesboro Volunteer Fire Department
    Oral Statement...............................................    29
    Written Statement............................................    32
    Biography....................................................    34
    Financial Disclosure.........................................    37

Mr. David T. Perkins, Training Officer, Aurelius Volunteer Fire 
  Department
    Oral Statement...............................................    37
    Written Statement............................................    41
    Biography....................................................    43
    Financial Disclosure.........................................    45

Mr. Pat DiNonno, Director, Office of Emergency Management and 
  Fire Coordinator, Cayuga County, New York
    Oral Statement...............................................    45
    Written Statement............................................    49
    Biography....................................................    52

Discussion.......................................................    52

              Appendix: Additional Material for the Record

Letter from Mr. Michael D. Quill, Chief, Auburn Fire Department..    64

 
 THE ASSISTANCE TO FIREFIGHTERS GRANT PROGRAM: A VIEW FROM UPSTATE NEW 
                                  YORK

                              ----------                              


                         MONDAY, JUNE 21, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 12:35 p.m., at the 
Auburn Fire Department, 23 Market Street, Auburn, New York, 
Hon. Sherwood Boehlert presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     The Assistance to Firefighters

                         Grant Program: A View

                         From Upstate New York

                         MONDAY, JUNE 21, 2004
                          12:30 p.m.-2:30 p.m.
                    AUBURN, NEW YORK FIRE DEPARTMENT

1. Purpose

    On Monday, June 21st, 2004, the House Science Committee will hold a 
field hearing to examine the Assistance to Firefighters Grant Program 
(AFGP) and its impact on the fire departments of upstate New York. The 
hearing will also consider legislation (H.R. 4107, the Assistance to 
Firefighters Grant Reauthorization Act of 2004) introduced by Chairman 
Boehlert to authorize continued funding for the AFGP through fiscal 
year (FY) 2007.

2. Witnesses

Mr. R. David Paulison is the U.S. Fire Administrator and Director of 
the Preparedness Division of the Emergency Preparedness & Response 
Directorate/FEMA in the Department of Homeland Security. Prior to his 
appointment as U.S. Fire Administrator in December 2001, he was chief 
of the Miami-Dade Fire Rescue Department. Administrator Paulison will 
be accompanied by Mr. Brian Cowan, Director of the Assistance to 
Firefighters Program for the Department of Homeland Security's Office 
of Domestic Preparedness (ODP).

Mr. Michael Quill is the Chief of the Auburn, New York Fire Department. 
The Auburn Fire Department serves a population of 29,000 and is staffed 
by approximately 70 career firefighters.

Mr. David Perkins is the Assistant Chief of the Aurelius Volunteer Fire 
Department in Auburn, New York. The Aurelius Fire Department serves a 
population of 3,200 permanent residents and is staffed by approximately 
60 volunteer firefighters.

Mr. Brian McQueen is the Chief of the Whitesboro, New York Volunteer 
Fire Department. The Whitesboro fire department serves the village of 
Whitesboro and part of the town of Whitestown, and is staffed by 63 
firefighters.

Mr. Pat DiNonno is the Fire Coordinator and Director of the Office of 
Emergency Management for Cayuga County New York.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  How effective has the Assistance to Firefighters Grant 
        Program (AFGP) been at improving the overall level of readiness 
        of fire departments in upstate New York? How has the program 
        evolved since its inception in 2000? What level of need still 
        exists with regard to the ability of departments in this area 
        to respond to day-to-day hazards, and in what areas are the 
        gaps greatest?

        2.  How do upstate New York fire departments view H.R. 4107 and 
        the AFGP, and what recommendations do they have for improving 
        the legislation?

        3.  How does USFA interact directly with fire departments 
        across the country to respond to their needs and concerns, and 
        how might fire departments around the country take better 
        advantage of USFA programs and services?

4. Brief Overview

        <bullet>  In 2000, Congress established the AFGP in the U.S. 
        Fire Administration to award grants directly to local fire 
        departments to protect ``the health and safety of the public 
        and firefighting personnel against fire and fire-related 
        hazards, and to provide assistance for fire prevention 
        programs.'' (The current authorization expires at the end of FY 
        2004.)

        <bullet>  Since 2001, the AFGP has distributed $1.1 billion to 
        nearly 17,000 fire departments around the country. In the 
        current FY 2004 grant year, $750 million was appropriated. 
        Approximately 20,400 departments applied, requesting $2.3 
        billion in equipment, training, vehicles, and other support. 
        The first round of awards were announced on June 4th. Continued 
        award announcements are expected on a weekly basis from now 
        through the end of the year. In the FY 2005 budget, the Bush 
        Administration has requested $500 million for the program.\1\
---------------------------------------------------------------------------
    \1\ On June 9th, 2004, the House Committee on Appropriations passed 
the FY 2005 spending bill for the Department of Homeland Security. The 
legislation provides $600 million for the AFGP, $100 million above the 
President's request and $150 million below the FY 2004 level.

        <bullet>  From its inception until FY 2003, the AFGP was 
        administered by USFA. For the first time this year, the program 
        is being administered by ODP as a result of language included 
        in the FY 2004 appropriation bill for the Department of 
        Homeland Security. Many in the fire services and Congress have 
        voiced concern that this transfer could shift the focus of the 
        program toward state-administered counter-terrorism assistance 
        and away from providing direct assistance on a competitive 
        basis to fire departments for the purpose of improving basic 
---------------------------------------------------------------------------
        firefighting capabilities.

        <bullet>  On April 1st 2004, Chairman Boehlert and a bipartisan 
        group of Congressional Fire Services Caucus leaders introduced 
        H.R. 4107, the Assistance to Firefighters Grant Reauthorization 
        Act of 2004. The bill would authorize $900 million per year for 
        the program in fiscal years 2005-2007. While H.R. 4107 
        continues the AFGP mostly unchanged, it does make several 
        programmatic modifications, including:

                <bullet>  Program Location. Transfers authority for 
                administering the AFGP from ODP to USFA.

                <bullet>  EMS Eligibility. Allows volunteer non-profit, 
                non-hospital Emergency Medical Service (EMS) squads not 
                affiliated with fire departments to apply for grants. 
                The bill would set a cap on the amount of funds those 
                entities could collectively receive at four percent of 
                the total appropriation for the program.

                <bullet>  Non-federal Match. Reduces from 30 percent to 
                20 percent the non-federal matching requirement to 
                receive a grant for jurisdictions that serve more than 
                50,000 people.

                <bullet>  Maximum Grant Size. Increases the grant-size 
                cap from $750,000 to $3 million for jurisdictions that 
                serve more than one million people, $2 million for 
                jurisdictions that serve between one million and 
                500,000 people, and $1 million for all other 
                departments.

                <bullet>  Volunteer Non-Discrimination. Specifies that 
                departments that receive funding under this Act cannot 
                discriminate against, or prohibit employees from 
                engaging in, volunteer firefighting activities in 
                another jurisdiction during off-duty hours.

                <bullet>  Peer Review. Codifies USFA's current 
                practices of consulting with fire service organizations 
                in considering criteria changes to the AFGP and 
                appointing fire service personnel to conduct peer 
                review of applications.

        <bullet>  The legislation has been endorsed by the New York 
        State Fireman's Association, National Volunteer Fire Council, 
        National Fire Protection Association, and National Association 
        of Towns and Townships.

5. Background on USFA

America's Fire Problem
    In the early 1970's, a report by the President's National 
Commission on Fire Prevention and Control entitled America Burning 
presented a dismal assessment of fire safety in the United States. The 
report found that nearly 12,000 citizens and 250 firefighters were lost 
to fire annually, in addition to approximately 300,000 injuries.
    When the USFA was established by Congress in 1974, its goal was to 
reduce by half the number of fire-related fatalities in the Nation--
bringing the number to approximately 6,000 or less per year within a 
generation. The agency met this goal, and by 1998 civilian fire deaths 
were at their lowest level. Additionally, using nearly any measure--
number of fires, deaths, injuries, or property losses--the statistics 
also reflect a declining trend.
    Despite this significant progress, the United States still has one 
of the worst fire safety records in the industrialized world. The per 
capita death rate remains two to three times that of several European 
nations and at least 20 percent higher than most developed countries. 
Fire remains the cause of approximately 3,700 deaths and $11 billion in 
economic damages each year, and every 18 seconds a fire department 
responds to a call somewhere in the United States.
USFA Programs
    In addition to supporting the AFGP, USFA programs include the 
following:
    Data Collection--USFA's National Fire Data Center (NFDC) 
administers a national system for collecting, analyzing and 
disseminating data and information on fire and other emergency 
incidents to State and local governments and the fire community. The 
NFDC provides a national analysis of the fire problem, identifying 
problem areas for which prevention and mitigation strategies are 
needed.
    Public Education and Awareness--Through partnerships and special 
initiatives, USFA involves the fire service, the media, other federal 
agencies and safety interest groups in the development and delivery of 
fire safety awareness and education programs. These programs are 
targeted at those groups most vulnerable to the hazards of fire, 
including the young, elderly, and disabled. For example, USFA recently 
announced the development of an aggressive plan to advocate increased 
use of residential fire sprinklers, which have become significantly 
more effective and less costly due to new technology, but are installed 
in only a very small percentage of homes.
    Training--USFA's National Fire Academy offers educational 
opportunities for the advanced professional development of mid-level 
and senior fire and emergency medical service officers and allied 
professionals involved in fire prevention and life safety activities. 
In 2002, the Academy trained almost 8,000 firefighters in various 
courses at Academy headquarters in Emmitsburg, 86,000 firefighters 
through off-campus training programs (primarily administered through 
support of state training programs), and 195,000 through its distance-
learning program. It is estimated that NFA has trained over 1.4 million 
students through on-campus and off-campus training programs since its 
establishment in 1975.
    Budget--The President's FY 2005 budget request for USFA ``core 
activities'' (those not including the AFGP) does not specify a level of 
funding for USFA. However, the FY 2004 request was $61.0 million, a 49 
percent increase above the FY 2003 request. Last November, the 
President signed legislation reauthorizing USFA activities through FY 
2008, including $63 million for FY 2005 (P.L. 108-169).

6. Questions for Witnesses

    Witnesses were asked to address the following questions in their 
testimony:
Questions for Mr. Paulison

        <bullet>  How effective has the Assistance to Firefighters 
        Grant program been at improving the overall level of readiness 
        of emergency responders in the United States? How has the 
        program evolved since its inception in 2001 to better meet its 
        charge of helping fire departments improve their ability to 
        respond to day-to-day hazards? What needs still exist, and in 
        what areas are the gaps the greatest?

        <bullet>  How is the Department of Homeland Security--and USFA 
        in particular--working to balance support for basic first 
        responder needs with support for counterterrorism preparedness?

        <bullet>  What is the status of traditional USFA activities 
        such as public education and outreach, fire research and data 
        analysis, and National Fire Academy training programs? How does 
        USFA interact directly with fire departments across the country 
        to respond to their needs and concerns, and how might fire 
        departments around the country take better advantage of USFA 
        programs and services?

Questions for Mr. McQueen, Mr. Perkins, and Mr. Quill

        <bullet>  How has your department's ability to prepare for and 
        respond to emergencies been impacted by the Assistance to 
        Firefighters Grant Program? What needs still exist at your 
        department with regard to its ability to effectively respond to 
        day-to-day hazards, and what is your impression of the overall 
        level of readiness of other departments in your region of 
        upstate New York?

        <bullet>  What are the appropriate roles of Federal, State, and 
        local governments in helping your department meet its 
        responsibilities to protect the public from fires and related 
        hazards? In what ways can the Federal Government in particular 
        improve its support for fire departments like yours?

        <bullet>  In what ways has your department interacted with USFA 
        and other agencies within the Department of Homeland Security 
        (DHS)? In your experience, how effective have these agencies 
        been at delivering support through activities other than the 
        fire grant program (i.e., training, education, outreach, etc.)? 
        Please provide any recommendations you have for improving these 
        activities within DHS.

Questions for Mr. DiNonno

        <bullet>  How does your office coordinate with Cayuga County 
        fire departments? What issues are presenting the greatest 
        challenges for first responders (including police, EMS, and 
        others) in your area, and what are the most pressing needs in 
        terms of equipment, staffing, training, communication, etc.?

        <bullet>  What are the appropriate roles of Federal, State, and 
        local governments in helping your office meet its 
        responsibilities to protect the public? In what ways can the 
        Federal Government, in particular the Department of Homeland 
        Security and the U.S. Fire Administration, improve its support 
        for offices like yours?

        <bullet>  How should the Federal Government balance support for 
        counter-terrorism activities with that of more traditional 
        first responder programs?

7. Appendix I

  Section-by-Section Summary of H.R. 4107, Assistance to Firefighters 
                   Grant Reauthorization Act of 2004

Sec. 1. Short Title.

    ``Assistance to Firefighters Grant Reauthorization Act of 2004''.

Sec. 2. Findings.

    Contains 27 Findings describing fire department needs and other 
relevant fire statistics.

Sec. 3. Amendments.

    Amends Section 33 of the Federal Fire Prevention Control act of 
1974 (15 U.S.C. 2229), which authorizes the Assistance to Firefighters 
Grant Program (AFGP), making the following changes:

(1)  Strikes [FEMA] ``Director'' each place it appears and replaces 
with [USFA] ``Administrator''.

(2)  Expands upon authority to make grants to fire departments to also 
include ``volunteer emergency medical service squads''.

(3)  Expands authority to provide assistance for fire prevention 
programs under the program to include assistance for ``firefighter 
safety research and development''.

(4)  Expands upon eligible use of grant funds to include emergency 
medical services provided by volunteer EMS squads that are not 
affiliated with a fire department, hospital, or any for-profit entity.

(5)  Amends subsection on Fire prevention programs to--

        (A)  Expand the title to ``Fire prevention and firefighter 
        safety research and development'';

        (B)  Clarify that fire departments cannot apply for grants 
        under this subsection.

        (C)  Expand priority consideration under this subsection to 
        include organizations that focus on prevention of injuries ``to 
        high-risk groups from fire, as well as research programs that 
        demonstrate the potential to improve firefighter safety''.

(6)  Amends subsection on matching requirements to

        --  reduce the non-federal match for departments serving 
        jurisdictions of greater than 50,000 people from 30 percent to 
        20 percent; and

        --  clarify the Fire prevention grants shall not have a 
        matching requirement.

(7)  Amends subsection on grant size limitation to provide that--

        (A)  The total amount a grant recipient may receive is 
        increased from $750,000 to

                --  $1,000,000 for departments that serve a 
                jurisdiction with 500,000 people or less;

                --  $2,000,000 for departments that serve a 
                jurisdiction of 500,000 to 1,000,000 people; and

                --  $3,000,000 for departments that serve a 
                jurisdiction with more then 1,000,000 people. The bill 
                also provides that, upon showing sufficient need, a 
                jurisdiction serving a number of people near the 
                threshold may receive funding up to the next higher 
                level.

        (B)  Re-designates subparagraph (B) as subparagraph (C);

        (C)  Provides that ``no single recipient may receive more than 
        one half of one percent of the funds appropriated under this 
        section for a single fiscal year''; and

        (D)  Requires that not more than four percent of the funds 
        appropriated to provide grants may be collectively awarded to 
        volunteer medical service squads.''

(8)  Codifies current grant program practice regarding annual criteria 
development and peer-review process. Also adds at the end the following 
new paragraph on discrimination of volunteer firefighters:

         ``(16) Protection of volunteers from discrimination--A fire 
        department receiving funds provided under this section shall 
        not discriminate against, or prohibit its members from engaging 
        in, volunteer activities in another jurisdiction during off-
        duty hours.''

(9)  Authorizes annual appropriations of $900 million for the program 
through fiscal year 2007.

Sec. 4. Reports.

(a)  Study on Need for Federal Assistance to State and Local 
Communities to Fund Firefighting and Emergency Response Activities--
Directs the Administrator to--

        (1)  reconduct the study required under section 1701(b) of the 
        Floyd D. Spence National Defense Authorization Act for Fiscal 
        Year 2001, in conjunction with the National Fire Protection 
        Association, to----

                (A)  define the current role and activities associated 
                with the fire services;

                (B)  analyze the extent to which grant awards fulfill 
                the goals of applicants; and

                (C)  provide a needs assessment to identify shortfalls.

        (2)  express the needs assessment under subparagraph (A)(iii) 
        on a national and State-by-State basis; and

        (3)  measure the impact the Assistance to Firefighters Grant 
        program under section 33 of the Federal Fire Prevention and 
        Control Act of 1974 has had in meeting the shortfalls 
        identified in the original report conducted under such section 
        1701(b).

(b)  Time for Completion of Study; Report--Directs the Administrator to 
complete the study under subsection (a), and submit a report on the 
results of the study to Congress, not later than 18 months after the 
date of the enactment of this Act.

(c)  Authorization of Appropriations--Authorized to be appropriated to 
the United States Fire Administration $300,000 for fiscal year 2005 to 
carry out the study required by subsection (a).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone here to beautiful, downtown 
Auburn, New York, for this House Science Committee field 
hearing on federal support for the firefighters and first 
responders. I greatly appreciate my colleague, Congressman Brad 
Miller from North Carolina, joining us here. And I want to 
especially offer my thanks to all of the witnesses who have 
taken time from their busy schedule to join us.
    Today's hearing--can you hear it okay? Today's hearing will 
follow exactly the same rules and procedures that we follow 
when the Committee convenes in Washington, DC. And Chief Quill, 
you know that drill, you've been down there testifying in 
Washington, and Chief David James from Weedsport, you too have 
been down.
    It is a wonderful chance for citizens to see firsthand the 
working of their government. It also provides an excellent 
opportunity for local officials who may have not had the time 
or opportunity to come to Washington to have their views heard. 
I am always one who operates under the assumption that not all 
wisdom is in Washington, DC. I think it's important for 
Congressional committees to get out across America in the real 
world, beyond the borders of Washington, DC, to hear from 
people in the communities like Auburn and counties like Cayuga. 
You can't always beat a path to Washington, so sometimes I 
think Congress should come to you, and that's exactly what 
we're doing.
    Today's hearing will focus on an issue that's critical to 
all of us: ensuring that firefighters and first responders have 
the resources they need to help protect us from a variety of 
threats.
    There are few matters on which I place a higher priority. 
That's why I was one of the founding members of the 
Congressional Fire Services Caucus about 20 years ago and why 
I'm proud to serve as co-chair today.
    I've put in that time because I don't want to make the 
mistake that so many Americans make, which is taking our first 
responders for granted. Firefighters, whether paid or 
volunteer, guard our lives with their lives. They devote 
themselves to their communities day after day after day, 
usually outside the limelight. They deserve our help, but when 
we help firefighters, we're not being altruistic or 
magnanimous. After all, we're the real beneficiaries. Grants to 
fire departments make us all safer.
    And the Assistance to Firefighters Grant Program that we 
will review today, commonly referred to as the FIRE Act, and 
the jurisdictions that they protect have benefited greatly from 
the program over the past three years.
    In our Congressional district alone 56 departments received 
over $4 million in grants last year. And Chief, let me 
congratulate you. And Chief McQueen from Whitesboro, let me 
congratulate you. You've done exceptionally well.
    From Utica to Frankfort, to Aurelius and here in Auburn and 
many of the counties in between, firefighters are getting much 
needed equipment and training. That is something members of the 
fire caucus are very proud of.
    And let me stress, the fire caucus is not a Republican 
creation or a Democrat creation, it's a bipartisan creation, 
and Congressman Miller is a very valuable member.
    But many needs are still unmet. The program needs to be 
continued. And that's why I've introduced H.R. 4107, which we 
will consider today.
    Let me take a brief moment to describe the bill which will 
allow us to continue to address these most pressing needs. The 
legislation reauthorizes the Fire Grant Program for three years 
at its current authorized level of $900 million per year. It 
mandates the peer-review process that has been such a critical 
component of the program's success.
    Firefighters and firefighting experts developed the 
criteria under which the applications are judged, and they make 
the key decisions as to who gets the positive nod on which 
projects are funded. It calls on the USFA to administer the 
program, which is the right agency with a track record of 
success in working with the fire services. It increases the 
maximum allowable grant and decreases the matching requirement 
for larger departments.
    And the mayor is going to appreciate that. So often we'll 
pass programs in Washington and say we'll give you so much 
money if the local jurisdiction will come up with the 
additional money, and so often the local jurisdiction is 
strapped and doesn't have the resources to come up with 
additional money. So we're decreasing the matching 
requirements.
    The program is needed, and I'm confident that it will be 
reauthorized before the end of the fiscal year. And that's why 
we're having this hearing, to develop the testimony that we can 
share with our colleagues so that they will appreciate how 
important the volunteer and the paid companies view this 
program.
    With that, let me say I am particularly pleased to welcome 
to Central New York my friend and colleague from the Committee 
on Science. And we have jurisdiction over all federal 
firefighting programs. The distinguished gentleman from North 
Carolina, Mr. Miller. Mr. Miller.
    [The prepared statement of Chairman Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    The Committee will come to order. I want to welcome everyone here 
to beautiful downtown Auburn, New York for this House Science Committee 
field hearing on federal support for firefighters and first responders. 
I greatly appreciate my colleague, Congressman Brad Miller from North 
Carolina, for joining me here and I want especially to offer my thanks 
to all the witnesses who have taken time from their busy schedules to 
join us today.
    Today's hearing will follow exactly the same rules and procedures 
that we follow when the Committee convenes in Washington, DC. It is a 
wonderful chance for citizens to see first hand the workings of their 
government. It also provides an excellent opportunity for local 
officials who may not have the time or opportunity to come to 
Washington to have their views heard.
    Today's hearing will focus on an issue that is critical to all of 
us: ensuring that firefighters and first responders have the resources 
they need to help protect us from a variety of threats.
    There are few matters on which I place a higher priority. That's 
why I was one of the founding leaders of the Congressional Fire 
Services Caucus about twenty years ago, and why I'm proud to serve as a 
Co-chair today.
    I've put in all this time because I don't want to make the mistake 
that so many Americans make, which is taking our first responders for 
granted. Firefighters, whether paid or volunteer, guard our lives with 
their lives. They devote themselves to their communities day after day 
after day--usually outside the limelight. They deserve our help, but 
when we help firefighters, we're not being altruistic or magnanimous. 
After all, we're the real beneficiaries. Grants to fire departments 
make all of us safer.
    And the Assistance to Firefighters Grant Program that we will 
review today--commonly referred to as the FIRE Act--has done just that. 
Fire departments in Central New York and around the country--and the 
jurisdictions they protect--have benefited greatly from the program 
over the past three years. In my Congressional District, 56 departments 
received over $4 million dollars in grants last year. From Utica to 
Frankfort to Aurelius to here in Auburn and many of the tiny towns in 
between, fire departments are getting much needed equipment and 
training. That is something members of the fire caucus are very proud 
of.
    But many needs are still unmet. The program needs to be continued. 
And that is why I have introduced with several of my colleagues in 
Washington the legislation before us today H.R. 4107, which we will 
consider today.
    And let me take a moment to briefly describe the bill, which will 
allow us to continue to address these most pressing needs. The 
legislation reauthorizes the fire grant program for three more years, 
at its current authorized level of $900 million per year. It mandates 
the peer-review process that has been such a critical component of the 
program's success. It calls on USFA to administer the program--the 
right agency with the track record of success in working with the fire 
services. It increases the maximum allowable grant size and decreases 
the matching requirement for larger departments--two issues that were 
very important to the national fire services organizations with which 
we worked very closely with to craft this bill, and whom we heard from 
at a hearing in Washington last month on the bill.
    And today I'm excited that we have this opportunity for a follow-up 
hearing to receive comments from those which the program impacts 
directly--the end-users.
    With that, let me begin to close as we have a limited amount of 
time and I want to make sure there is plenty left for discussion.
    But first, I want to thank all of our witnesses for being here 
today. And in particular, I would like to thank Chief Mike Quill for 
his generosity in hosting us here today. I also want to thank Dave 
Paulison, the U.S. Fire Administrator, for taking time out of his busy 
schedule to join us here today. For those of you that may not be aware, 
USFA is a small, but critical agency nestled inside the mammoth 
Department of Homeland Security. A lot of people in Washington don't 
know about them, but they have a very important mission: to serve you, 
the first responder community and the greater public, in reducing the 
loss of life and property from fires and related hazards.
    And I can tell you that Chief Paulison has ably guided the agency 
in this effort, seeing it through numerous challenges and keeping it 
focused on its core mission of strengthening the fire services across 
America while also contributing greatly to the Department's broader 
efforts to prepare for, and respond to, acts of terrorism.
    And as a bit of an aside I should take this opportunity to let 
Chief Paulison know that he shouldn't plan to rest on these past 
successes, as Congress will be soon sending him a new challenge in the 
form of the SAFER Program. I'm pleased to announce that SAFER--
legislation of mine that I crafted to complement the FIRE Act by 
helping us address the critical staffing shortages in our fire 
services--will hopefully soon be a reality. President Bush signed it 
into law last year, and just this past week we were able to secure $50 
million in startup funding for the program. It's only a fraction of 
what is needed, but an important achievement nonetheless, and something 
we can build on.
    With that, I will stop talking, and start listening. First to my 
colleague Mr. Miller from North Carolina and then to our distinguished 
panel.

    Mr. Miller. Thank you, Mr. Chairman. I am very pleased to 
be here at the Auburn Fire Department to join Chairman Boehlert 
for the Science Committee hearing on issues associated with 
fire safety and emergency responders.
    Mr. Boehlert is certainly one of the leading advocates in 
Congress for local fire departments, for the Fire Grants, for 
all that you do. I think that--I wanted to make sure that I 
said that to the folks back here, back home for Mr. Boehlert, 
but judging from the presentations here before the hearing 
began, it appears that you caught up on that on your own 
without me being here to tell you.
    I do appreciate the chance to be here today. Our focus is 
on the value and effectiveness of the U.S. Fire Administration 
programs for assisting first responders in performing their 
critical public safety roles. We are especially interested in 
reviewing the implementation and impact of the Assistance to 
Firefighters Grant Program, which is usually referred to as the 
Fire Grants Program, as Chairman Boehlert has already said.
    And I certainly know from my own district as well how 
important those Fire Grants have been to so many fire 
departments, particularly the fire departments in my district 
as well.
    At this point the Fire Administrator Paulison cannot be 
here personally; I hope that he is able to reach us by 
telephone and testify by telephone. And I think certainly we 
will present to him, though, the results of all of the other 
testimony that we receive today from the people who are on the 
front line.
    The Federal Fire Prevention and Control Act of 1974 that 
created the U.S. Fire Administration was intended to address a 
serious problem affecting the safety of all Americans. We have 
made much progress during the past quarter century in public 
education about fire safety and the improvement and 
effectiveness of fire services and in the wider use of home 
fire safety devices, but the United States still has one the 
highest fire death rates among advanced countries.
    The question then arises, what is being done that is 
effective and what ought to be done in order to make further 
progress in improving the Nation's fire safety record? Of 
course, the adequacy of the overall level of resources 
available to the Fire Administration is an important 
consideration.
    The landmark report, America Burning, which was the genesis 
of the 1974 act, requested an initial annual budget for the 
Fire Administration of $124 million. That's based upon 1974 
dollars.
    The report found that those resources were needed to 
support the training, the technology development, the data 
collection, and the public education activities that we needed. 
But the recommended level is not something Congress has ever 
achieved. We have never provided more than $40 million for Fire 
Administration programs.
    The Fire Grant Programs, which Chairman Boehlert was so 
instrumental in developing and in creating, which is what we 
are discussing primarily in this hearing, is the first federal 
program that provides substantial direct assistance to fire 
departments. It is intended to help provide the tools that 
local departments need to do their job.
    Thus far, nearly $2 billion have been appropriated over 
four years to support the training programs for fire service 
personnel and provide resources for the purchase of updated 
firefighting and emergency response equipment.
    The Science Committee recently held a hearing on proposed 
legislation to reauthorize the Fire Grants through fiscal year 
2007 and is currently authorized at a spending level of $900 
million a year. The bill also makes changes to the way the 
program is currently implemented, including increasing the 
maximum award size, a reduction to cost share for large fire 
departments, and support for research grants on ways to improve 
firefighter safety.
    I hope to hear today how the Fire Grants Program is working 
from those who work most closely with it: folks that we're 
trying to help out, the people who are putting the money to 
work to try to protect all Americans from the dangers of fires. 
I am very interested in our witnesses' views on the impact of 
that program and the effectiveness on the way it's being 
implemented by the Fire Administration. We welcome any 
recommendations on how to improve the program.
    And more generally I ask for the assistance of the 
witnesses in assessing how well current fire programs are 
working and where the available resources are being allocated 
optimally. I also encourage our witnesses to provide 
recommendations regarding any aspect of the policies and 
operations of the Fire Administration as a result in helping 
the agency to achieve the commission objectives.
    Again, I am pleased to be here in Auburn as Chairman 
Boehlert's guest to review the important programs on the U.S. 
Fire Administration. I want to thank all the witnesses for 
making themselves available for this hearing, although I know 
that you came less far for this hearing for a change than I 
did. And I want to thank everyone who's assisted the Committee 
in making arrangements for today's hearing. Thank you.
    [The prepared statement of Mr. Miller follows:]

            Prepared Statement of Representative Brad Miller

    I am pleased to be here at the Auburn Fire Department to join 
Chairman Boehlert for this Science Committee hearing on issues 
associated with fire safety and emergency response.
    Our focus today is on the value and effectiveness of U.S. Fire 
Administration programs for assisting first responders in performing 
their critical public safety roles. We are especially interested in 
reviewing the implementation and impact of the Assistance to 
Firefighters Grant program--which is usually referred to as the Fire 
Grants program.
    I want to welcome Fire Administrator Paulison and our other 
distinguished witnesses, and thank them for appearing before the 
Committee.
    The Federal Fire Prevention and Control Act of 1974 that created 
the U.S. Fire Administration was intended to address a serious problem 
affecting the safety of all Americans. Much progress has been made 
during the past quarter century in public education about fire safety, 
improvement in the effectiveness of fire services, and the wider use of 
home fire safety devices. Nevertheless, the United States still has one 
of the highest fire death rates among advanced nations.
    The question then arises as to what is being done that is effective 
and what more ought to be done in order to make further progress in 
improving the Nation's fire safety record. Of course, the adequacy of 
the overall level of resources available to the Fire Administration is 
an important consideration.
    The landmark report, America Burning, which was the genesis of the 
1974 Act, recommended an initial annual budget for the Fire 
Administration of $124 million, in then-year dollars. The report found 
that these resources were needed to support training, technology 
development, data collection, and public education activities. But 
appropriation levels have never exceeded $40 million for core Fire 
Administration programs.
    The Fire Grants program, which we will be discussing during this 
hearing, is the first federal program that provides substantial direct 
assistance to fire departments. It is intended to help provide the 
tools fire departments need to do their job. Thus far, nearly $2 
billion has been appropriated over four years to support training 
programs for fire service personnel and to provide resources for the 
purchase of up-to-date firefighting and emergency response equipment.
    The Science Committee recently held a hearing on proposed 
legislation to reauthorize the Fire Grants program through fiscal year 
2007 at the currently authorized funding level of $900 million per 
year. The bill also makes some changes to the way the program is 
currently implemented, including increases in maximum award size, a 
reduction in the cost share for large fire departments, and support for 
research grants on ways to improve firefighter safety.
    I hope to hear today how the Fire Grants program is working from 
some of those it is intended to benefit. I am interested in our 
witnesses' views on the impact of this program and on the effectiveness 
of the way it has been implemented by the Fire Administration. Any 
recommendations on how to improve the program would be welcome.
    More generally, I ask the assistance of our witnesses in assessing 
how well current Fire Administration programs are working and whether 
the available resources are being allocated optimally.
    I also encourage our witnesses to provide recommendations regarding 
any aspect of the policies and operations of the Fire Administration 
that will result in helping the agency to achieve its mission 
objectives.
    Again, it is my pleasure to be in Auburn, New York today with 
Chairman Boehlert to review the important programs of the U.S. Fire 
Administration. I want to thank our witnesses for making themselves 
available for this hearing, and I also want to thank everyone here who 
assisted the Committee in making arrangements for this hearing.

    Chairman Boehlert. Thank you very much.
    Now, as some of you know, earlier today we received 
notification that U.S. Air had cancelled its mid-morning flight 
from Washington to Syracuse, therefore denying us a personal 
appearance on behalf of U.S. Fire Administrator David Paulison.
    But this is a Science Committee, so we have to figure out a 
different way to do it. And we're going to bring to you 
Administrator Paulison by long distance by telephone. And Mr. 
Clancy, is it prepared now?
    With that, let me present to you, ladies and gentlemen, Mr. 
R. David Paulison, U.S. Fire Administrator and Director, 
Preparedness Division, Emergency Preparedness and Response, 
Department of Homeland Security. Mister Administrator, are you 
available?

STATEMENT OF MR. R. DAVID PAULISON, U.S. FIRE ADMINISTRATOR AND 
   DIRECTOR, PREPAREDNESS DIVISION, EMERGENCY PREPAREDNESS & 
   RESPONSE DIRECTORATE/FEDERAL EMERGENCY MANAGEMENT AGENCY, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Paulison. [Via telephone.] Good morning, Mr. Chairman, 
Members of the Committee. I appreciate you indulging us by 
speakerphone, and I apologize for not being able to make it up 
there; but, unfortunately, I don't have much control over the 
airlines.
    I appreciate you being there, especially the fire officers 
out there. You need to take interest in what's going on, and by 
attending meetings like this and telling us what your issues 
are and how well we're doing, it just makes it tremendously 
easier for us to make decisions.
    Let me cover just a few things; I'll keep it as short as I 
can. And I know I can't hear you very well, but maybe we can 
pass questions back and forth where we can focus on what your 
issues are.
    When I took over Fire Administration, we decided to get 
back to basics and to what exactly were we supposed to be doing 
in Fire Administration, how best can we help the fire service 
out there. And we decided we could do it in three ways: (1) by 
providing leadership for the fire service, (2) by an advocacy 
program where we can make your issues known in Congress and in 
the White House, and (3) by helping to coordinate issues out 
there. And those are the three areas that we're focusing on.
    But the Fire Administration and myself, we're going to stay 
with our basics in fire service training, which is what we do 
best, a public education and awareness program, our technology 
research issues, and then also the data analysis that we use 
for our interest program.
    Training issues I think is probably the most important 
thing because one of our primary missions is to provide first 
responder training. In the early 1990s and up to the mid 1990s 
we were happy we were getting 4000 students on campus. And I'm 
proud to say that last year we had over 17,000 students on 
campus, and we turned away 30 or 40 percent of those that 
applied because we just simply didn't have enough room. So 
we're going to be expanding into our distance learning. And 
this last year we trained 185,000 students through our distance 
learning program.
    What we're focusing on is training command-level fire 
officers, emergency managers, emergency responders, and 
technical staff. And that includes city managers, public works 
directors, and all of those people that it takes to respond to 
some of the major disasters.
    But we're going to continue to focus on all hazards. I know 
we have to pick the services and means and what to do with that 
because at least, as you know very well, we have the very core 
of this country to protect. But we're going to stay the course 
and continue on our own on behalf of the commission because 
although I cannot guarantee a terrorist attack, I can guarantee 
that we're going to have hurricanes and tornados and floods and 
earthquakes and all those things we have every day that the 
fire service has to deal with.
    We're learning at some new training programs, primarily one 
on incident management teams that we're developing around the 
country. We've already done one in New York--excuse me, one in 
Washington, DC, one in Pennsylvania, and we're going to be 
looking to New York to do the next one.
    We know when we have these major disasters, and I can speak 
from personal experience after handling Hurricane Andrew, that 
after three or four days your command staff starts getting 
burned out and they start not making good decisions anymore, 
and you need incident commanders to come in and help to fill 
those slots in our ICS [Incident Command System] system. So 
we're putting these tapes together to go in and assist the 
local fire departments, looking to fill in those slots as your 
command staff starts getting tired.
    We're going to focus more on long distance learning, like I 
said, and we're going to make sure that we do courses, 
especially like the integrated emergency management course that 
we have. And we bring in seven or eight people from the city, 
the fire chief, police chief, public works director, the city 
managers, all those people that have to handle those 
emergencies and teach them as a team on how to deal with those 
things.
    Oklahoma City went through the course just before the 
Oklahoma City bombing, and they credited taking that course 
with their ability to handle that incident. Salt Lake City went 
through this just before the Olympics, and they did the same 
thing.
    Each year, as you all know, we're still losing over 4,000 
people a year in fires in this country. It's one of the worst 
in the industrialized world per capita. Our annual property 
loss is over $10 billion to this country, this is through fire, 
and also on top of that we're losing over 100 firefighters 
every year. So those are going to be our main focuses as long 
as I'm here at the Fire Administration.
    One of the campaigns we kicked off last year was the Babies 
and Toddlers campaign. We know that the majority of our fire 
deaths are children under five and those over 65, so we kicked 
off the Babies and Toddlers campaign.
    And this year we're kicking off a public safety campaign 
for people over 50. The campaign is primarily focused on those 
over 65 and those caregivers that are over 50 who give care for 
those who are over 65. And we're also going to kick off or are 
kicking off our National Residential Sprinkler Initiative. We 
think that the next step of protecting lives for people in this 
country is through the Residential Sprinkler Initiative. We 
know from experience that Scottsdale, Arizona, has had a 
sprinkler ordinance for over 15 years. In the 15 years they 
have never lost a life in Arizona, but they lose one a year in 
Maryland. So we're going to keep pushing to do that.
    I guess the main thing we want to talk about is the 
Assistance to Firefighters Grant Program that we have that has 
been tremendously successful. In your district alone, 
Congressman, we have given out almost $8 million since 2002-
2003, and I'm sure there will be much more in the upcoming 
year.
    We're focused on training, safety, fire prevention, fire 
apparatus, personal protective gear and other equipment, and 
also with health and wellness. In your districts up there most 
of the equipment that we purchased has been those basic issues 
with subject breathing apparatus, personal protective 
equipment, and other types of equipment. And we're going to 
continue focusing on those.
    As of the end of June 9th of this year we have awarded over 
16,000 grants nationwide, and once we finish the support grants 
we'll have given out almost $2 billion to the fire service. And 
never before in the history of the fire service have we as the 
Federal Government participated in a program like that.
    We're going to stick with the current review process, as we 
know. Secretary Ridge is moving all of the first responder 
grants into the Office for Domestic Preparedness, and that's 
going to centralize all of our grants. We'll have a one-stop 
shop.
    And I'm proud to say that our relationship with him has 
been excellent, and we're going to continue with the peer-
review process where we bring over 400 fire people a year in to 
review those grants and allow the firefighters that are making 
the decisions of where these grants need to go.
    I think those are the main issues I wanted to cover. What I 
would like to do is answer any questions that you might have 
with the Fire Grants and anything the Fire Administration is 
doing. We're going to have to probably relay so I can hear 
these questions, but let's try it and see if it works.
    [The prepared statement of Mr. Paulison follows:]
                Prepared Statement of R. David Paulison
    Good Morning, Mr. Chairman and Members of the Committee. My name is 
R. David Paulison. I am the Director of the Preparedness Division and 
the United States Fire Administrator in the Federal Emergency 
Management Agency (FEMA), Department of Homeland Security (DHS). I 
appreciate the opportunity to appear before you today on behalf of 
Secretary Ridge.
    Each year, fire injures and kills more Americans than the combined 
losses of all other natural disasters. Death rates by fire in the 
United States are among the highest in the industrialized world. The 
U.S. Fire Administration's (USFA) mission to reduce loss of life and 
property because of fire and related emergencies is a sobering 
challenge, but also a hopeful challenge, since most of these deaths are 
preventable.
    As a part of DHS, the USFA staff works diligently to prevent these 
deaths, injuries, and the damage to property through leadership, 
advocacy, coordination and support in four basic mission areas: fire 
service training, public education and awareness, technology and 
research, and data analysis.
    To accomplish this mission, USFA works with the fire service, other 
emergency responders and State and local governments to better prepare 
them to respond to all hazards, including acts of terrorism. USFA also 
listens to State and local governments and works with private industry 
to provide standardized, practical, compatible equipment. USFA assists 
first responders and emergency managers as they practice and refine 
their response plans with partners at the local, State, and federal 
level. USFA will continue to provide training and education programs to 
prepare for the routine hazards as well as the emergent threats posed 
by WMD and terrorist incidents.
    Today, I will focus my remarks on the U.S. Fire Administration, its 
programs and services, how to improve the preparedness, effectiveness, 
and safety of our first responders, and summarize our current 
activities and future needs. In addition, I will discuss the Assistance 
to Firefighters Grant Program, known as the FIRE Act Grants, that USFA 
had the privilege of administering from its inception in Fiscal Year 
(FY) 2001 through FY 2003.

ACCOMPLISHMENTS

    The U.S. Fire Administration is a national leader in fire safety 
and prevention and in preparing communities to deal with fires and 
other hazards. USFA is working to support the efforts of local 
communities to reduce the number of fires and fire deaths, champions 
federal fire protection issues, and coordinates information about fire 
programs.
    In terms of our preparedness programs, USFA recognizes the 
importance of training as a vital step toward a first responder 
community that is prepared to respond to any kind of emergency, ranging 
from a small fire to a terrorist attack involving a large number of 
victims. We continue to administer training and education programs for 
community leaders and first responders to help them prepare for and 
respond to emergencies regardless of cause or magnitude.
    DHS provides equipment, vehicles, and training and wellness 
programs through the Assistance to Firefighters Grant program to help 
first responders perform their duties. For FY 2004, Congress again 
appropriated over $745 million for DHS to provide grants directly to 
fire departments to build their basic response capabilities for all 
types of emergencies, including suppressing fires. This brings total 
funding for this grant program to a little over $1 billion since the 
program began three years ago. This program benefits communities as a 
whole and benefits other first responder entities by building the base 
capabilities of local fire departments to respond to all types of 
incidents.
    FEMA continues to provide training in emergency management to our 
firefighters, law enforcement, emergency managers, health care workers, 
public works, and State and local officials at our Emergency Management 
Institute. I would like to give you a few more details about these and 
other USFA activities.

TRAINING

National Fire Academy and Emergency Management Institute
    USFA's primary mission continues to be preparation of this nation's 
first responders through training at the National Fire Academy (NFA) 
and Emergency Management Institute (EMI) in Emmitsburg, Maryland and 
our new addition, the Noble Training Center in Anniston, Alabama, a 
full scale hospital facility for training medical response personnel.
    In the early 1990s, when USFA had 4,000-5,000 students attending 
courses in the resident programs, the programs were considered a 
success. In 2003, FEMA trained almost 17,000 resident students at NFA 
and EMI.
    The National Fire Academy and the Emergency Management Institute 
offer a wide variety of training programs to promote the professional 
development of command level firefighters, emergency managers, 
emergency responders, and technical staff. Fire departments will 
continue to receive training to respond to hazards such as chemical 
accidents, floods, or hurricanes in addition to training from the 
Department of Homeland Security to respond to terrorist attacks. USFA 
will continue to develop policy, procedures and training for a cadre of 
structural firefighters that will be identified by States in wildland 
fire threat zones.
    In FY 2003, EMI provided critical emergency management training for 
over 8,000 students, and over 185,000 individuals completed independent 
study courses. The NFA provided residential training, training through 
outreach, regional or direct deliveries, and distance learning efforts 
to over 95,000 students. Both EMI and NFA expect to increase course 
offerings and number of students trained for FY 2004.
    Emergency responders, firefighters, emergency managers and others 
who have taken courses at EMI and NFA have told USFA that these courses 
have added value to job performance and professional development. This 
federal support provides State and local entities increased 
opportunities for fire service training.
    In the future USFA will:

        --  Coordinate the exchange of training materials and 
        information among State and local fire training systems;

        --  Focus on distance learning and alternate training delivery 
        methods such as the National Incident Simulation and Training 
        network; independent study programs, and computer-based 
        courses;

        --  Increase the number of Integrated Emergency Management 
        Courses with bioterrorism scenarios aimed at bringing officials 
        of local jurisdictions together to simulate and critique their 
        responses to terrorism-driven events;

        --  Revise training courses to include the most updated 
        information on risk management, public fire safety education, 
        and emergency response;

        --  Partner with associate and bachelor degree programs to 
        align the national academic fire curricula; and,

        --  Include multiple delivery formats in future course 
        development so that the nexus of the course may be provided to 
        the field in a variety of adaptable formats.

    FEMA is currently developing a training program to prepare regional 
Incident Management Teams (IMT) to provide support for major incidents 
prior to, or in lieu of, the arrival of a Federal IMT. Simultaneously, 
FEMA is developing the training for the Federal Incident Management 
Teams Program.
Noble Training Center (NTC)
    Training provided by FEMA at the Noble Training Center (NTC) 
focuses on hospital preparedness and the integration of hospitals' 
responses to a WMD incident into the total community response system. 
Specific courses at NTC include: Healthcare Leadership and Decision-
Making, and the Integrated Emergency Management Course (IEMC) for 
communities, currently part of the Metropolitan Medical Response System 
program. As resources become available, Hospital Emergency Incident 
Command (HEICS) train-the-trainer courses will be offered. A hospital 
emergency planning course will also be developed. All of these actions 
will contribute support for planning medical surge capabilities.
    In addition, FEMA has actively engaged the Department of Health and 
Human Service's Healthcare Resources and Services Administration (HRSA) 
staff, specifically the National Bioterrorism Preparedness Program, to 
train some of their grantee hospital personnel at Noble this year, and 
also to ensure a coordinated planning and training effort in the 
future.
    The transition of Noble provides challenges that DHS/FEMA are 
actively engaged in addressing. These challenges include: integration 
of the Noble Training Center into the FEMA training system, the 
development of new curricula and delivery of existing curricula for the 
hospital/health care community, completing the renovation of the 
hospital classroom for exercise delivery, and completing the renovation 
of the dormitories. Additionally, FEMA is in the early stages of 
coordinating some of the training programs and sharing resources with 
the Center for Domestic Preparedness, also located at Ft. McClellan.
    It is critical that DHS keep the most likely first responders to 
any terrorism or WMD event fully advised of information and 
circumstances that might affect their response and their community's 
preparation. Partnering with the law enforcement community has enhanced 
our ability to deliver direct warnings that will result in improved 
operations and better outcomes. We look forward to continuing our 
partnership in critical infrastructure protection.

PUBLIC EDUCATION AND AWARENESS

    Reducing the loss of life and property caused by fire remains a 
significant challenge. Each year, fire kills more than 4,000 people and 
injures more than 22,000. Home safety means smoke alarms, education, 
and sprinklers. Annual property losses due to fire are estimated at 
nearly $10 billion. And, firefighters pay a high price. In 2003, 109 
firefighters died while on duty. These losses are unacceptable because 
most can be prevented.
    USFA continues to deliver fire safety messages to those most 
vulnerable to fire--the very young, the elderly, and others. We will 
continue to manage Emergency Response Team activities with an eye 
toward public outreach and community hazards assessment and mitigation 
efforts. USFA will assist communities in establishing Community 
Emergency Response Teams.
    Our Fire Safety Campaign for Babies and Toddlers is targeted to 
parents and caregivers of children under the age of five. This program 
has garnered over 50 million media impressions since its launch. The 
fire service and national partners are reaching millions more through 
pediatricians, SAFE KIDS coalitions, NFPA Champions, and other service 
providers.
    The Multi-cultural Campaign for Babies and Toddlers targets parents 
and caregivers in African American, Hispanic, and Latino communities. 
USFA has produced fact sheets in six additional languages to help the 
fire service reach high-risk groups.
    USFA's Quick Response Program identifies ``teachable moments'' to 
get fire safety in the news immediately after a fatal or other major 
fire, by sending fire safety fact sheets to local media and fire 
department as the story is unfolding. In March 2004 alone, the Quick 
Response Program responded to 359 residential fires, generated 24 known 
news stories, and coordinated 11 media interviews.
    This summer we are launching a Fire Safety Campaign for People 50-
Plus which will be a new public education campaign targeting high risk 
population aged 65 and older. This campaign will also target the 50-
plus age group in order to also reach people who are entering and 
caring for those in the high-risk senior years.
    Progress is being made through the National Residential Sprinkler 
Initiative. FEMA will continue to broadcast training information via 
the Emergency Education Network (EENET) twice a month to enhance State 
and local preparedness for all hazards, including terrorist incidents. 
Since 1981, EENET has broadcast more than 400 programs to meet the 
needs of all levels of emergency management, from volunteer 
firefighters to State Emergency Management Directors.
    EENET is an effective way to get timely information or training out 
to a large audience. Coupled with other outreach and training programs, 
EENET is a good way to share information about training and education 
and to keep first responders abreast of emerging issues.

DATA COLLECTION

    The Fire Administration continues to collect, analyze, publish, and 
distribute data and information related to fire prevention, occurrence, 
control, and related fields. USFA defines and describes the national 
fire problem, and supports State and local collection and analysis of 
fire incident data.

ASSISTANCE TO FIREFIGHTERS GRANT PROGRAM

    The Assistance to Firefighters Grant program provides competitive 
grants to address training, safety, prevention, apparatus, personal 
protective gear and other firefighting equipment needs as well as 
wellness and fitness issues of local fire departments. DHS has 
streamlined the online application process for fire grants and sped up 
the flow of resources to first responders, while ensuring that the 
funds are used effectively and appropriately. In 2001, 2002, and 2003, 
we received over 20,000 applications each year, from fire departments 
across the country.
    As of June 9, 2004, FEMA has processed more than 30,000 grants 
payments totaling more than $800 million for the Assistance to 
Firefighters Grants Program from FY 2001 to FY 2003. The total for the 
Firefighter Assistance for FY 2001 is $91,050,915; for FY 2002, 12,107 
payments totaling $326,389,392; and for FY 2003, 12,696 payments 
totaling $371,345,489. Also, as of June 9, 2004, Fire Prevention grants 
awarded for FY 2002 and FY 2003 include 293 payments totaling 
$6,226,218.00.
    Beginning with the 2001 Grant Program, the Emergency Education 
NETwork (EENET) broadcast valuable information on the grant programs 
and process. Prior to the application period in FY2003, EENET broadcast 
an actual applicant workshop, which was rebroadcast several times 
during the application period. FEMA heard from many organizations that 
this eased the application process. We began announcing the FY 2003 
awards to successful applicants in June 2003 and completed them three 
months ahead of schedule in February of 2004.
    The Assistance to Firefighters Grant program in its short three-
year existence has provided a tremendous amount of equipment, training 
and educational programs across the Nation. At present, there has not 
been an evaluation of this grant program's impact because of the nature 
in which these projects are undertaken, completed, and the resulting 
impact on public safety. In many cases the vehicles purchased are just 
coming on line, the training provided is just now being internalized, 
and the public education campaigns are underway.
    Lauded by many, the peer review process for the fire grants process 
has been a tremendous success. The process allows a diverse sample of 
the national fire services community to review and rank the 
applications. It allows over 400 fire services members, both career and 
volunteer, from large and small communities, from rural and suburban 
areas to play a significant role in making award recommendations. This 
allows the fire services, who best know the needs of that community, to 
have a substantive role in the decision making process. The present 
process of outside groups and individual firefighter involvement 
significantly enhances the entire grant program.
    In an effort to offer ``One Stop Shopping'' to the applicant of the 
FIRE Act grants--the local fire department--the Secretary of Homeland 
Security, with support from the Congress, consolidated all first 
responder grant award programs within the Office for Domestic 
Preparedness (ODP). This created a single point of entry for States and 
localities into the Federal Government seeking first responder 
assistance. In 2004, ODP, along with USFA assistance and subject matter 
expertise, managed the fire grants program within DHS. USFA continues 
to work closely with ODP to ensure the continued success of this vital 
program. In addition, DHS is contributing to government wide efforts to 
facilitate the federal grants application process by posting summaries 
of grant announcements on the Federal Government's Grants.gov website.
    As an example of the cooperation between ODP and USFA, for FY 2004 
and FY 2005, we have discussed the need to undertake a study to attempt 
to quantify the program's impact on local fire departments and fire 
safety. Both USFA and ODP believe such a study is necessary and will 
yield valuable information as the Department continues its efforts to 
support the Nation's fire service.

CONCLUSION

    Thank you, Mr. Chairman, for giving me this opportunity to appear 
before you today. Your continued support is greatly appreciated. I will 
be glad to answer any questions you and other Members of the Committee 
may have.

                    Biography for R. David Paulison

    R. David Paulison was appointed Director of the Preparedness 
Division of the Emergency Preparedness & Response Directorate/FEMA, in 
the newly created Department of Homeland Security in 2003. He will 
continue to serve as the Administrator for the U.S. Fire 
Administration, a position to which he was appointed in December 2001.
    As Director of the Preparedness Division, Mr. Paulison administers 
a broad range of programs designed to reduce injuries and death due to 
disasters, strengthen states and communities and prevent or reduce 
damage to public and personal property. He is also responsible for 
enhancing State and local emergency preparedness, training federal, 
State, and local emergency managers, and conducting a nationwide 
program of exercises. As head of the U.S. Fire Administration, Mr. 
Paulison also supports State and local fire service programs and 
oversees programs to reduce life and economic losses due to fire and 
related emergencies in partnership with fire protection and emergency 
service communities.
    Before joining FEMA, Mr. Paulison, who has 30 years of fire rescue 
services experience, was Chief of the Miami-Dade Fire Rescue 
Department. In that position, he oversaw 1,900 personnel with a $200 
million operating budget and a $70 million capital budget. He also 
oversaw the county's emergency management office.
    He began his career as a rescue firefighter and rose through the 
ranks to Rescue Lieutenant, Battalion Commander, District Chief of 
Operations, Division Chief, Assistant Chief and then Deputy Director 
for Administration before becoming Chief. His emergency management 
experience includes Hurricane Andrew and the crash of ValuJet Flight 
592.
    A native of Miami, Fla., Mr. Paulison earned a Bachelor of Arts 
from Florida Atlantic University and completed the Program for Senior 
Executives in State and Local Government at Harvard University's John 
F. Kennedy School of Government. He is a recipient of the LeRoy Collins 
Distinguished Alumni Award and has been inducted into the Miami-Dade 
Community College Hall of Fame. Mr. Paulison was also selected as Fire 
Chief of the Year by Florida in 1993 and holds positions in several 
professional associations. He is a certified paramedic and as Fire 
Chief, oversaw the Miami-Date Urban Search and Rescue Task Force. He is 
also Past President of the International Association of Fire Chiefs.

    Chairman Boehlert. Mr. Administrator, first of all, I'd 
like to thank you very much. And quite honestly, we'll defer 
any questions for you because we get to work with you and see 
you on a daily basis in Washington, DC.
    The main thrust of this hearing is to hear from our locals, 
people who are actually experiencing this program, and have 
them tell us what they have learned from their participation.
    So let me once again on behalf of Congressman Miller and 
myself and all the people gathered here thank you for that 
presentation, and we will share with you and our colleagues in 
the Congress information that we have gleaned from this hearing 
so that we can make an outstanding program even better. Thank 
you.
    Just let me point out before we introduce our witnesses 
that the administrator talked about the millions that we've 
been successful in securing. Not me, Chief Quill and Chief 
McQueen and Mr. Perkins and the people in Aurelius, because we 
have sent out mailings like that which all the fire companies 
should have received. We have had seminars like we had in 
Cayuga County Community College and in Whitesboro.
    I operate under the assumption that knowledge is power. If 
you have these federal programs, so often people say, well, how 
do we get a piece of the action? That's why we have these 
mailings, that's why we have the seminars, to bring expert 
information to you so that you can take that information, 
Chief, as your department so successfully did, and make an 
application and come up a winner.
    I'll tell you, there are a lot of chiefs across the country 
that look and say how did you do it. And you know how you did 
it, just as Chief McQueen does, and just as the people out in 
Aurelius do.
    So with that, let me call our witnesses. Mr. Michael Quill, 
Chief of the Auburn Fire Department; Mr. Brian McQueen, Chief 
of the Whitesboro Fire Department; Mr. David Perkins, Training 
Officer for the Aurelius Volunteer Fire Department; and Mr. Pat 
DiNonno, Director of the Office of Emergency Management, Fire 
Coordinator for Cayuga County.
    We'll go in the order that you were called. Chief Quill, 
you're up first.

  STATEMENT OF MICHAEL D. QUILL, CHIEF, AUBURN FIRE DEPARTMENT

    Mr. Quill. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Miller, welcome to the city of Auburn, the Auburn Fire 
Department Station Number 1.
    As you know, the city of Auburn is a small city here in 
Central New York. According to the latest census, Auburn has a 
population of 28,574 people and covers an area of 8.6 square 
miles.
    In 2003 the city of Auburn responded to 3,752 calls for 
service including structure fires, vehicle fires, emergency 
medical calls, hazardous conditions, and service calls. We do 
this from three stations located throughout the city. Our table 
of organization calls for 72--excuse me, 71 uniformed members 
and two civilian employees, with a minimum of 14 firefighters 
and officers on duty at all times.
    Mr. Chairman, in your invitation you asked the witnesses to 
address certain issues dealing with H.R. 4107 and its affects 
on the fire service. Let me begin in this manner: The Fire Act 
as it stands is probably one of the best things that happens at 
a fire service. Without it my brother and sister firefighters 
would not have the proper tools to complete their hazardous 
jobs.
    These grants go directly to the fire departments where 
needed, not to another layer of bureaucracy where it is 
whittled down. The grants are awarded on a competitive basis, 
after careful review by fellow firefighters.
    Last year the Auburn Fire Department was fortunate to 
receive an Assistance to Firefighters Grant for $180,100. This 
grant was used to purchase personal protective gear, and if you 
look to your left, you'll see the equipment that we had 
purchased: self-contained breathing apparatus and radios. All 
items necessary for firefighter safety.
    The cost of this equipment is approximately $6,200 per 
individual. The Fire Grant helped considerably to improve 
firefighter safety; however, we are certainly not out of the 
woods yet.
    The vehicle sitting behind you was purchased in 2002 with a 
delivery cost of $419,000. Currently we are in desperate need 
of replacing two vehicles with the combined cost of $1.2 
million. One of the hook & ladder trucks that needs to be 
replaced was built in 1979. In some circles that vehicle would 
be considered an antique.
    One of our front line engines, or as some people call it, a 
pumper, is 15 years old. Yes, we can continue to repair them, 
but obtaining replacement parts is practically impossible. 
There comes a time when you need to purchase new vehicles and 
actually can save money by doing so. We currently have a grant 
request in to replace this engine, and hopefully we'll be 
successful again this year.
    Thanks to the Fire Grants, fire departments in Central New 
York are purchasing the necessary equipment to fit their 
individual needs. When you talk to chiefs who have been 
successful in landing a grant, you can hear their pride in the 
fact that they can now equip their firefighters with the basic 
equipment that was not affordable before. Slowly, through the 
Fire Grants, fire departments are reaching a much higher level 
of readiness.
    In regards to federal, state, and local governments, all 
levels of government need to work together in the area of 
public safety. The fire service is a prime example of how this 
can be accomplished. Mutual aid has been in effect for many 
years.
    The events of 9/11 have demonstrated to the public 
something that the fire service has known for years: in times 
of emergencies we cannot go it alone. Our firefighters are well 
trained in what they do, whether it's a paid or volunteer 
department. We can accomplish our objectives to save lives and 
protect property, but we need the help of government at all 
levels to supply us with the tools, equipment, and technology 
to continue. Local governments cannot afford this alone.
    The Federal Government needs to continue the Fire Grants 
program. This is the best means of equipping fire departments, 
regardless of size, so they can continue to operate and protect 
the firefighters. Firefighting is one of the ten most hazardous 
jobs in the country. We must do all we can to support and 
protect the Nation's firefighters.
    In regards to the Department of Homeland Security of the 
United States Fire Administration, beginning in March of 2003 a 
total of 33 firefighters and fire officers from the Auburn Fire 
Department have attended classes in Anniston, Alabama, Las 
Vegas, Nevada, and New Mexico, for a total of 1,700 hours of 
training.
    The Department of Homeland Security sponsored all these 
classes, and they're all highly regarded by the Auburn Fire 
Department personnel. One of our employees is also presently 
working for the Department of Homeland Security as an 
instructor. In July our city manager and I will be in Anniston 
to attend classes. I would hope that these types of schools 
remain open for fire service. When you hear a firefighter say 
they have their act together, you can rest assured it was not a 
waste of time.
    Michael D. Brown, the undersecretary of Homeland Security 
for Emergency Preparedness and Response said, ``In this post 9/
11 environment it is important that all members of the first 
responder and emergency management community work together to 
determine risks and coordinate responses.''
    A consortium of Cayuga County first responders has been 
formed to address their commitment to ensure up-to-date 
training to provide along with resources to protect their 
communities. The mission of the consortium is to provide high 
quality, engaging training and education for first responders 
and other public safety personnel to prepare these 
professionals to react as part of a team to any natural or 
manmade local emergency.
    Locally, Cayuga County Community College is a leader in 
this consortium and is committed to facilitating the training 
needed to respond to all hazards. The consortium intends to 
address the 5P plan: preparedness, performance, psychosocial, 
practice, and prediction.
    Volunteer and career firefighters participated in a 
Saturday, day-long training workshop at the college this past 
spring. In addition, the Institute for the Application of 
Geospatial Technology at Cayuga Community College has developed 
prototype public safety critical incident management software 
that John Lamphere has field tested in his criminal justice 
classes. This high-tech approach to training in field 
management will be utilized throughout the consortium training 
workshops. The consortium is developing a full service of first 
responder training to begin at Cayuga Community College and 
various locations throughout Cayuga County this coming fall.
    I hope the Department of Homeland Security views this type 
of local and regional cooperation and coordination to be viable 
and worthy of funding support.
    In closing, Mr. Chairman, I'd like to thank you and the 
Members of your committee for taking your valuable time to come 
here and conduct this hearing on this very important issue.
    The fire service needs and warrants the Fire Act. This 
program is definitely a win-win for the fire service as well as 
the people that we serve and protect. Thank you.
    Chairman Boehlert. Thank you very much, Chief Quill.
    [The prepared statement of Mr. Quill follows:]

                 Prepared Statement of Michael D. Quill

    Mr. Chairman and Members of the Committee, welcome to the City of 
Auburn, and the Auburn Fire Department Station #1.
    The city of Auburn is a small city here in Central New York. 
According to the latest census, Auburn has a population of 28,574 
people and covers an area of 8.6 square miles.
    In 2003, the city of Auburn responded to 3,752 calls for service 
including structure fires, vehicle fires, emergency medical calls, 
hazardous conditions and service calls. We do this from three stations 
located throughout the City. Our table of organization calls for 71 
uniformed members and two civilian employees, with a minimum of 14 
firefighters and officers on duty at all times.
    Mr. Chairman, in your invitation, you asked the witnesses to 
address certain issues dealing with H.R. 4017, and its affects on the 
fire service. Let me begin in this manner:

        <bullet>  The Fire Act, as it stands, is probably one of the 
        best things to happen to the Fire Service. Without it, my 
        brother and sister firefighters would not have the proper tools 
        to complete their hazardous duties.

        <bullet>  These grants go directly to the fire departments 
        where needed, not to another layer of bureaucracy where it is 
        whittled down.

        <bullet>  The grants are awarded on a competitive basis, after 
        careful review by fellow firefighters.

    Last year, the Auburn Fire Department was fortunate to receive an 
``Assistance to Firefighters Grant'' for $180,100. This grant was used 
to purchase personal protective gear, self-contained breathing 
apparatus and radios. All items necessary for firefighter safety. The 
cost of this equipment is approximately $6,200.00 per individual. The 
Fire Grant helped considerably to improve firefighter safety; however, 
we certainly are not out of the woods yet.
    The vehicle sitting behind you was purchased in 2002 with the 
delivery cost of $419,000. Currently, we are in desperate need of 
replacing two vehicles with the combined cost of $1,200,000. A hook & 
ladder truck that needs to be replaced was built in 1979. In some 
circles, that vehicle would be considered an antique. One of our front 
engines, or as some people call it, a pumper, is 15 years old. Yes, we 
can continue to repair them, but obtaining replacement parts is 
practically impossible. There comes a time when you need to purchase 
new vehicles and actually can save money doing so. We currently have a 
grant request in to replace this engine and hopefully we will be 
successful again this year.
    Thanks to the Fire Grants, fire departments in Central New York are 
purchasing the necessary equipment to fit their individual needs. It is 
a great privilege, when you talk with other Chiefs who have been 
successful in landing a grant, to hear they can now equip their 
firefighters with the basic equipment that was not affordable before. 
Slowly, through the Fire Grants, fire departments are reaching a much 
higher level of readiness.

FEDERAL, STATE, AND LOCAL GOVERMENTS

    All levels of government need to work together in the area of 
public safety. The fire service is a prime example of how this can be 
accomplished. Mutual aid has been in effect for many years.
    The events of 9/11 have demonstrated to the public something that 
the fire service has known for years, in times of emergencies we cannot 
``go it alone.'' Our firefighters are well trained in what they do, 
whether it is a paid or volunteer department. We can accomplish our 
objectives to save lives and protect property; but we need the help of 
government at all levels to supply us with the tools, equipment and 
technology to continue. Local governments cannot afford this alone.
    The Federal Government needs to continue the Fire Grant program. 
This is the best means of equipping fire departments, regardless of 
size, so they can continue to operate and protect their firefighters. 
Firefighting is one of the ten most hazardous jobs in the country. We 
must do all we can to support and protect this nation's firefighters.

DEPARTMENT OF HOMELAND SECURITY, UNITED STATES FIRE ADMINISTRATION

    Beginning in March of 2003, a total of 33 firefighters and fire 
officers have attended classes in Anniston, Alabama, Las Vegas, Nevada 
and New Mexico for a total of 1700 hrs. of training. The Department of 
Homeland Security sponsors all these classes, and all are regarded 
highly by Auburn Fire Department personnel. One of our employees is 
presently working for DHS as an instructor. In July, our City Manager 
and I will be in Anniston to attend classes. I would hope these types 
of schools remain open to the Fire Service. When you hear a firefighter 
say, ``they have their act together,'' you can rest assured that it was 
not a waste of time.
    Michael D. Brown, Under Secretary of Homeland Security for 
Emergency Preparedness and Response, said, ``In this post 9/11 
environment, it is important that all members of the first responder 
and emergency management community work together to determine risks and 
coordinate their responses.'' A consortium of Cayuga County first 
responders (see attached listing) has been formed to address their 
commitment to ensure up-to-date training is provided along with 
resources to protect their communities. The mission of the consortium 
is to provide high quality, engaging training and education for first 
responders and other public safety personnel to prepare these 
professionals to react as part of a team to any natural or manmade 
local emergency.
    Cayuga Community College is a leader in this consortium and is 
committed to facilitating the training needed to respond to all 
hazards. The consortium intends to address the ``5P'' plan: 
Preparedness, Performance, Psychosocial, Practice and Prediction. 
(Source: Drew Fried, EMT-B, ``Emergency Management and Business 
Continuity,'' May/June 2004, fire/EMS.)
    Volunteer and career firefighters participated in a Saturday, day-
long training workshop at the College this past spring. In addition, 
the Institute for the Application of Geospatial Technology (IAGT) at 
Cayuga Community College has developed prototype PSCIM (Public Safety 
Critical Incident Management) software that John Lamphere has field 
tested in his Criminal Justice classes. This high-tech approach to 
training and field management will be utilized through the consortium 
training workshops. The consortium is developing a full-service of 
first responder training to begin at Cayuga Community College and 
various locations throughout Cayuga County this coming fall.
    I hope the Department of Homeland Security views this type of local 
and regional cooperation and coordination to be viable and worthy of 
funding support.
    In closing, Mr. Chairman, I would like to thank you and Members of 
your committee for taking your valuable time to come here to conduct 
this hearing on this very important issue.
    The Fire Service needs and warrants the Fire Act. This program is 
definitely a ``win-win'' for the Fire Service as well as the people we 
serve and protect.
    I will be happy to answer any of your questions.

                     Consortium of First Responders

                  Either in Principle or in Resources

 1. Cayuga Community College

 2. SUNY Oswego

 3. Auburn Police Department

 4. Auburn Fire Department

 5. Office of the Cayuga County Sheriff

 6. Cayuga County Emergency Management Office

 7. NASA through the IAGT

 8. Federal Emergency Management Agency

 9. NYS Department of Environmental Conservation

10. NYS Commission of Corrections

11. NYS Department of Corrections

12. Cayuga County Fire Chiefs Association

13. Cayuga County Firefighters Association

14. City of Auburn Council

15. Cayuga County Legislature

16. Juvenile Fireplay

17. Cayuga County Soil & Water

18. Cornell Cooperative Extension

19. Cayuga County LEPC Advisory Board

20. Cayuga County Emergency Medical Services

21. Department of Treasury

    Should be able to get the NYS Police involved through Office of 
Counterterrorism

* LEPC Advisory Board includes as members:

        <bullet>  Law enforcement

        <bullet>  Fire

        <bullet>  Emergency medical services

        <bullet>  NYS Electric & Gas

        <bullet>  NUCOR

        <bullet>  Salvation Army

        <bullet>  Cayuga County Health Department

        <bullet>  Cayuga County Health and Human Services

        <bullet>  Red Cross

        <bullet>  Numerous others

                     Biography for Michael D. Quill

    My name is Michael D. Quill and I am the Fire Chief of Auburn, NY. 
I was born and raised in Auburn. After graduating from high school, I 
entered the United States Marine Corps and served on active duty for 
four years including a tour in Viet Nam. Upon completion of my 
enlistment, I started my career with the Auburn Fire Department in 
November of 1973. During my 301/2 years, I have worked in all ranks of 
the Department from Firefighter to Lieutenant, to Captain, to Municipal 
Training Officer to Assistant Chief; and in February of 1995, I was 
promoted to Chief of Department.
    I have been married to the former Joan McDonald for thirty years. 
We have two children. Michael Jr., who is a Police Officer in North 
Syracuse, NY, and Colleen, who is in the Master's program at State 
University of New York at Cortland in Elementary Education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Chief McQueen.

     STATEMENT OF BRIAN F. McQUEEN, CHIEF, WHITESBORO FIRE 
                           DEPARTMENT

    Mr. McQueen. Congressman Boehlert, staff members, Mr. 
Miller, Chief Quill, Training Officer Perkins, Mr. DiNonno, and 
guests, today marks the day that the Volunteer Fire Service of 
New York State has its chance to draw a picture of why Congress 
needs to continue to fund the life-saving Assistance to 
Firefighters Grant in years to come.
    I'm chief of the Whitesboro Fire Department, a 100 percent 
volunteer-staffed department, located in Central New York 
between the cities of Utica and Rome. Our department serves a 
community of approximately 14,000 residents of all ages and 
covers about 5,000 square miles of suburban and rural homes.
    The department provides fire protection, hazardous 
materials first response, rescue and extrication, public fire 
education, along with the advanced and basic life support 
services. This is provided 365 days a year, seven days a week, 
24 hours a day. Within our fire district our department has a 
proactive mutual aid response plan with our neighboring 
volunteer departments. Our membership is at 55 members to date; 
15 EMTs and 30 qualified interior fire attack certified 
firefighters. Our department has maintained approximately 55 
members for quite some time. The age of the young firefighters 
knocking our doors down to volunteer are slim and far between.
    As I speak with each of you here today, the effects of what 
happened in New York City on September 11th, 2001 are still 
impacting small communities like ours. I see this not only as a 
chief of a volunteer fire department, but as principal of an 
elementary building located in an area serviced by our 
department. Society is changing, and the family structure in 
small villages such as Whitesboro is changing as well. While 
money from our state is dwindling, the hope of a flourishing 
grant for fire departments is an answer to a prayer of many of 
us as volunteer fire service administrators.
    The volunteer fire service here in Central New York and 
around the state needs this grant, H.R. 4107, to survive. This 
grant is needed so that we can adhere to mandates placed upon 
us as volunteer fire department administrators, as well as 
enhancing the safety of not only our firefighters, but our 
residents as well.
    Since its inception I've had the pleasure of making 
application to the Assistance of Firefighters Grant Program for 
our department. The first few years I applied for communication 
and advanced life support equipment that would have enhanced 
the life safety of our residents and our firefighters, only to 
be denied both times. That did get me down. Both times I 
attended the grant writing workshops to see what I could do to 
make the grant reach a peak of success. The lack of feedback 
from the USFA's grant department when I asked constructively to 
critique my previous grant to see how I could make it better 
was at a minimum. But all of us here today know quite well that 
this is the kind of support that volunteer firefighters are 
looking for in the future of this grant program. All of us 
don't have the opportunity to hire or have on staff a grant 
writer. We're once again asked to do more with less.
    Success came to Whitesboro this past year as I continued to 
call Congressman Boehlert's office both in Utica and Washington 
pleading our case for new self-contained breathing apparatus. 
With our current ones becoming extinct with age, I was 
concerned with the life safety of my firefighters and the 
residents in our coverage area.
    Once word was received of the success of the grant, the 
process was one that should be modeled for other grants across 
this nation. Personally, I can't say enough about the help and 
support that I received in dealing with the FEMA grant staff to 
finalize payments and to carry out the grant. Everything was 
done in a user-friendly manner and tasks were easy to carry out 
as a volunteer fire chief.
    I must also say that our department was turned down this 
year once again for the 2003 fire prevention grant. This grant 
would have allowed our department to work collegially with 
neighboring departments to provide fire and life safety 
experiences and education programs for more than 22,000 
residents. Once again a rejection letter came with no 
explanation on why or how to make the proposal better.
    The $69,063 that we received for the Whitesboro Fire 
Department in the 2003 Assistance to Firefighters Grant 
provided our firefighters with safer equipment to use in fire 
and initial attack purposes. Our grant's initial application 
called for 30 self-contained breathing apparatus, and the 
program grant was cut to 20. The 20 self-contained breathing 
apparatus were the state-of-the-art SCOTT NxGs, which are 
currently being placed into service today as I address you.
    These new lighter packs will allow our firefighters to meet 
the hazards associated with various responses along with 
providing only 20 of my firefighters with respiratory 
protection if another attack impedes our society as it did on 
September 11th. If you could ask if my department's 
firefighters are fully protected against an attack, I would 
have to honestly answer no. The other ten SCBAs will have to 
come from taxpayers and/or fire department fund drive 
donations.
    In this year's grant to be submitted, it is our hope that 
we will be able to once again flourish in a successful grant. 
This year's grant will enhance the outreach abilities of our 
fire department to meet the needs of our community if an attack 
happens in our area.
    The United States Fire Administration must continue to 
develop outreach financial assistance to volunteer departments 
in all towns and villages across our state. The financial 
support can mean a difference between life and death.
    Our fire station is the evacuation site in case of an 
emergency in our districts. Our fire station was built in 1969, 
is not handicap accessible, has no backup generator or power 
source if power goes down because of an attack. This year's 
grant that I applied for has this included, but as of yet, no 
results. I also operate with an inoperable thermal imaging 
camera that is eight years old. This tool has been used to 
enhance firefighter safety while providing us with an ability 
to rescue a victim if the need arises.
    Before I close, I would like to address the changes that 
are being proposed for this year. First, protection of 
volunteers from discrimination. The fire department receiving 
funds provided under this section shall not discriminate 
against, or prohibit its members from engaging in, volunteer 
activities in another jurisdiction during off-duty hours.
    This piece is crucial to the problems that we in the 
volunteer fire service face in the recruitment and retention of 
volunteers across our communities. These firefighters can 
enhance the fire protection and education in the volunteer fire 
departments while providing its residents with a well-trained 
volunteer staff ready to meet the challenges that we face. As a 
volunteer fire chief I would look forward to this becoming a 
reality, as I know this would improve our ranks in numbers, 
knowledge, and abilities.
    Second, our department averages approximately 71 percent of 
its calls as medical related. Section 3, Item 4 expands upon 
eligible use of grant funds to include emergency medical 
services provided by volunteer EMS squads that are not 
affiliated with a fire department, hospital, or any not-for-
profit entity. Organizations such as these are also faced with 
declining personnel and funding received from its communities.
    The addition of this section to the grant will benefit not 
only these organizations, but also the fire departments and the 
residents in the area that they respond to. All too often we 
hear repeated calls for help with these volunteer ambulance 
corps in our county and surrounding counties. The cost of EMS 
equipment is on the rise, and the burden of that rise is the 
pricing impacts that we are impacted with every day.
    Inclusion of the Fire Prevention grant is a step in a 
positive direction when we speak of fire and life safety 
education. Children under the age of 14 are at the highest risk 
of receiving needless injuries. And you know as well as I do, 
these children will someday be sitting here like you and I are 
today if they have a chance to become better educated in the 
areas of fire and life safety.
    Coalitions across our nation are coming together in hopes 
of reducing injuries for these children. Injuries from such 
things as fire, bicycle, water, improper car seat installation, 
and much more. Communities such as ours are changing in 
stature. There are more single-parent families moving in, and 
the need for a parent to work to survive the rising cost of 
living expenses is at an all-time high.
    The job of an educator and public fire educator as well as 
a firefighter has become more evident as we instruct these 
latchkey children on how to survive injuries and death. Adding 
more financial assistance to the Fire Prevention Grant is 
needed.
    With limited funds being forwarded to the volunteer fire 
departments and municipalities across the state, we can save 
the local taxes. The need to address the safety in these types 
of societies is at utmost importance. You may not believe this, 
but America is still burning in villages, towns, and cities 
across our state, and our children and senior citizens are 
being injured every day because we don't have the manpower or 
equipment to meet the educational needs today.
    In closing, opportunities such as the Assistance to 
Firefighters Grant Program is sometimes our only chance to live 
our dreams to the fullest in the job that we love to do for 
free. This grant allows us to perform duties that no one would 
ever think of. After all, we're the ones going into the fully 
charged building when everyone is running out. And if you don't 
believe me, just look at the pictures from the World Trade 
Center; screaming people running out while brave firefighters 
were running in. Some of these firefighters came from volunteer 
departments in the New York City and Long Island area. If it 
works for them, it can work for us.
    All of us, career or volunteer, are not free from the 
dangers that face us in the fire service. None of us are free 
from foreign attacks that can happen in any community across 
this region. I beg you, on the part of the volunteers of New 
York State and our aging communities, please enhance the 
Assistance to Firefighters Grant so that all of us can get a 
chance to continue to share in the financial support that will 
allow us to do our jobs to the best of our ability. I firmly 
believe that man made this grant to come to fruition, and man 
will see that it will continue to grow in each and every area.
    I want to thank Congress and especially Congressman 
Sherwood Boehlert, who has continually fought for the 
volunteers of our county and Central New York to make sure that 
they have what other departments around the Nation have. 
Congressman Boehlert is an advocate for the volunteer fire 
service and knows the importance of protecting lives, homes, 
and businesses, as a positive way of serving a society that is 
constantly changing. Thank you, Congressman, and thank each and 
every one of you here today for listening and being here.
    Chairman Boehlert. Thank you very much, Chief. And I want 
you to know that it's not just me and it's not just a bunch of 
Republicans, it's Brad Miller, the Democrat from North 
Carolina, that Congress is awake and well aware of the 
importance of the work you do every single day. And your 
testimony demonstrates the high degree of professionalism 
that's evident in the volunteer companies just as it's evident 
in the paid companies. You've got a bunch of professionals, 
some paid, others volunteer, but they're all professional, and 
we're trying to help you.
    [The prepared statement of Mr. McQueen follows:]

                 Prepared Statement of Brian F. McQueen

    Congressman Boehlert, Members of the Committee on Science, U.S. 
House of Representatives, Mr. Paulison, Chief Quill, Training Officer 
Perkins, and guests, today marks the day that the volunteer fire 
service of New York State has its chance to draw a picture of why 
Congress needs to continue to fund the lifesaving Assistance to 
Firefighters Grant Program in years to come.
    I'm Chief of the Whitesboro Fire Department, a 100 percent 
volunteer staffed department, located in Central New York between the 
cities of Utica and Rome. Our department serves a community of 
approximately 14,000 residents and covers about 5,000 square miles of 
suburban and rural homes. The department provides fire protection, 
hazardous materials first response, rescue and extrication, along with 
advanced and basic life support service. This is provided 365 days a 
year, seven days a week, twenty-four hours a day. Within our fire 
district our department has a proactive mutual aid response plan with 
our neighboring volunteer departments. Our membership is at 55 members 
to date, 15 EMTs and 30 qualified interior fire attack certified 
firefighters. Our department has maintained approximately 55 members 
for quite some time. The age of the young firefighters knocking our 
doors down to volunteer are slim and far between.
    As I speak with each of you here today, the effects of what 
happened in New York City on September 11, 2001 are still impacting 
small communities like ours. I see this not only as a Chief of a 
volunteer fire department, but as a principal of an elementary building 
located in the area serviced by our department. Society is changing and 
the family structure in small villages such as Whitesboro is changing 
as well. While money from our state is dwindling ever so low, the hope 
of a flourishing grant for fire departments is an answer to a prayer 
for many of us. The volunteer fire service here in Central New York and 
around the state needs this grant to survive. This grant is needed so 
that we can adhere to the mandates placed upon us as volunteer fire 
department administrators as well as enhancing the safety of not only 
our firefighters but our residents as well.
    Since its inception, I have had the pleasure of making application 
to the Assistance of Firefighters Grant program for our department. The 
first two years I had applied for communication and advanced life 
support equipment that would have enhanced the life safety of our 
residents and our firefighters, only to be denied both times. Both 
times I attended the grant writing workshops to see what I could do to 
make the grant reach a peak of success. What bothered me the most was 
the lack of feedback from FEMA's grant department when asked to 
constructively critique my previous grant to see how I could make it 
better. Their answer to this idea was this could not be done. But, all 
of us here today, know quite well that this is the kind of support that 
volunteer firefighters are looking for in the future of this grant 
program. All of us don't have the opportunity to hire, or have on 
staff, a grant writer. We're once gain asked to do more with less.
    Success came to Whitesboro last year as I continued to call the 
Congressman's office both in Utica and Washington, pleading our case 
for new self-contained breathing apparatus. With our current ones 
becoming extinct with age, I was concerned with the life safety of my 
firefighters and the residents form our coverage area. Once word was 
received of the success of the grant, the process was one that should 
be modeled for other grants across this nation. Personally, I can't say 
enough about the help and support that I received in dealing with the 
FEMA grant staff to finalize the payments. Everything was done in a 
user-friendly manner and tasks were easy to carry out as a volunteer 
Chief.
    I must also say that our department was turned down this year for 
the 2003 Fire Prevention Grant. This grant would have allowed our 
department to work collegially with a neighboring department to provide 
fire and life safety experiences and educational programs for more than 
22,000 residents. Once again, a rejection letter came with no 
explanation on why, or how to make the proposal better.
    The 2003 Assistance to Firefighters Grant that we received allows 
us to provide our firefighters with safer equipment to use in fire and 
initial attack purposes. Our grant's initial application called for 30 
self-contained breathing apparatus and the grant program cut us to 20. 
The grant committee chose this number without sufficient feedback from 
our department. The 20 self-contained breathing apparatus were the 
state-of-the-art SCOTT NxG's which are currently being placed into 
service as I address you here today. These new lighter packs will allow 
our firefighters to meet the hazards associated with our various 
responses along with providing only 20 of my firefighters with 
respiratory protection if another attack impedes our society as it did 
on September 11. If you could say that my department's firefighters are 
fully protected against an attack, I would have to say no. The other 10 
SCBA's will have to come from the taxpayers and fire department 
donations.
    In this year's grant that we submitted, it is our hope that we will 
be able to once again flourish in a successful grant. This year's grant 
will enhance the out-reach abilities of our department to meet the 
needs of our community if an attack happens in our area.
    The Department of Homeland Security should continue to develop out-
reach financial assistance to volunteer fire departments in all towns 
and villages across our state. This financial support can mean the 
difference between life and death.
    Before I close I would like to address to changes that are being 
proposed for this year. First: ``Protection of volunteers from 
discrimination--A fire department receiving funds provided under this 
section shall not discriminate against, or prohibit its members from 
engaging in, volunteer activities in another jurisdiction during off-
duty hours.'' This piece is crucial to the problems that volunteer fire 
departments face in the recruitment and retention of the volunteers who 
serve their communities. These firefighters can enhance the fire 
protection and education in the volunteer fire departments while 
providing its resident with a well-trained volunteer staff ready to 
meet the challenges that we face each and every day. As a volunteer 
fire chief I would look forward to this becoming a reality, as I know 
this would improve our ranks in numbers, knowledge and abilities.
    Second, our department averages approximately 71 percent of its 
calls as being medical related. Section 3, Item 4 expands upon eligible 
use of grant funds to include emergency medical services provided by 
``volunteer EMS squads that are not affiliated with a fire department, 
hospital, or any for-profit entity.'' Organizations such as these are 
also faced with declining personnel and funding received from its 
communities. The additions of this section to the grant program would 
benefit not only these organizations, but also the fire departments and 
the residents in the area of their response district. All too often we 
hear the repeated calls for help with our volunteer ambulance corps in 
our county and surrounding counties. The cost of EMS equipment is on 
the rise and burden of that rise in pricing impacts the quality of life 
that you and I can live.
    Inclusion of the Fire Prevention grant is a step in a positive 
direction when we speak of fire and life safety education. In the 
United States, children under the age of 14 are the highest risk of 
serious injuries in the United States. You know as well as I do, these 
children will someday be sitting here like you and I are today if they 
have a chance to become better educated in the area of fire and life 
safety. Coalitions across our nations are coming together in hopes of 
reducing injuries to these children. Injuries from such things as fire, 
bicycle, water, improper car seat installations and more. Communities 
such as ours are changing in stature. There are more single parent 
families moving in and the need for a parent to work to survive the 
rising cost of living expenses is at an all-time high. The job of an 
educator and public fire educator has become more evident as we 
instruct these latch-key children how to survive from injuries and 
death. Adding more financial assistance to the Fire Prevention Grant is 
needed.
    In closing, opportunities such as the Assistance to Firefighter's 
Grant Program is sometimes our only chance to live our dreams to 
fullest in the job that we love and do for free. This grant allows us 
to perform duties that no one would ever think of. After all, we're the 
ones going into the fully charge building when everyone is running out. 
And, if you don't believe me, just look at the pictures of the World 
trade Center, screaming people running out, while brave firefighters 
were running in. Some of these firefighters came from volunteer 
departments in the New York City/Long Island area. If it works for 
them, it can work for us.
    I want to thank Congress and especially our Congressman Sherwood 
Boehlert who has continually fought for the volunteers of our county 
and Central New York to make sure that they have what other departments 
have around the Nation. Congressman Boehlert is an advocate for the 
volunteer fire service and knows the importance of protecting lives, 
homes and businesses as a positive way of serving in a society that is 
constantly changing. Thank you Congressman and thank each of you here 
today for listening.

                     Biography for Brian F. McQueen

Education

Daemen College, Amherst, NY

B.S. Elementary Education

        <bullet>  Member of Phi Beta Gamma Fraternity

        <bullet>  Assisted with scheduling of athletic events

        <bullet>  Resident Assistant

        <bullet>  Eucharistic Minister

1982-1997    State University at Cortland

Certificate of Advanced Studies

        <bullet>  Administrative requirements were completed with 30 
        hours

        <bullet>  Currently hold a New York State Certification in 
        School Administration and Supervision

        <bullet>  Certificate of Advanced Study

Professional experience

1998-Present    Whitesboro Central School, Whitesboro, New York

Principal--Westmoreland Road Elementary School

        <bullet>  Supervise fifty instructional and ten non-
        instructional personnel

        <bullet>  Chaired the school's Shared Decision-making Team

        <bullet>  Implemented a successful parent volunteer program

        <bullet>  Wrote a project grant through the Disney Foundation 
        that would provide after school educational and social 
        assistance and intramurals for students

        <bullet>  Implemented a modified Character Education Program

        <bullet>  Designed a building specific Morning Program for 
        students and parents

        <bullet>  Member of the school's Child Study Team

        <bullet>  Improved the New York State English Language Arts 
        Assessment and Grade 5 Writing scores for the building as the 
        school received a 100 percent score on the Grade 4 NYS ELA test 
        in 2002

        <bullet>  Developed evening programs for parents that focus on 
        student/parent success in school

        <bullet>  Developed a Safety Guidebook for teachers in all four 
        elementary schools across the district

        <bullet>  Served on the district's Technology Committee for Web 
        development

        <bullet>  Developed building specific goals that focused on 
        achievement, technology and the achievement of our district's 
        curriculum goals

        <bullet>  Attended Administrative conference at Minnowbrook and 
        the Educational Law Conference in association with Syracuse 
        University.

        <bullet>  Chaired the district's K-12 Social Studies Committee.

        <bullet>  Attended numerous BOCES and district sponsored 
        courses

        <bullet>  Member of the District's safety Committee

2001-Present    Fire Chief--Whitesboro Fire Department

        <bullet>  Currently in Charge of Public and Life Safety 
        Education for the fire district

        <bullet>  Position held for three years

        <bullet>  Held each office from Lieutenant through Assistant 
        Chief. Assistant Chief for 11 years.

        <bullet>  Firefighter of the Year--1992

        <bullet>  National Volunteer Fire Council Fire Prevention Award 
        for Excellence in Public and Life Safety Education--1993

        <bullet>  Worked with Assistant Chief Brooks of the Utica Fire 
        Department to enhance training in our department

        <bullet>  Worked as Assistant Chief of Training

        <bullet>  Sat on the committee to develop the new Whitestown 
        Training Site

        <bullet>  Obtained approximately $400,000 in grants for the 
        fire service in Whitesboro and our county.

        <bullet>  Obtained the following firefighter courses from the 
        Office of Fire Prevention and Control and the National Fire 
        Academy:

                 1.  Essentials of Firemenship

                 2.  Initial Fire Attack

                 3.  Fire Behavior and Arson Awareness

                 4.  Emergency Vehicle Operators

                 5.  Hazardous Materials--level 1 and 2

                 6.  Command and Management for the Company Officer

                 7.  Vehicle Extrication-2

                 8.  Pubic Fire Educators Conference--10 years (Seminar 
                speaker at two of these conferences)

                 9.  NYS Pump Operators

                10.  Incident Command--Taught this in the four sections 
                of our county with Past Chief David Jacobowitz

                11.  Instructional Techniques for the Company officer

                12.  Certified Interior Firefighter

Central New York Firemen's Association Inc.

        <bullet>  Past Chairperson--Fire Prevention Committee

        <bullet>  Current member of the Scholarship Committee

        <bullet>  New Chairperson of the Legislative Committee

Firemen's Association of the State of New York

        <bullet>  Chaired Fire Prevention and Life Safety Committee 
        from 1992-2002

        <bullet>  Co-Chairperson--FASNY Scholarship Committee

        <bullet>  Coordinated all of the state's fire and life safety 
        education programs for the volunteer fire service of New York 
        State while Chairperson of the FASNY Fire and Life Safety 
        Committee until 2002

        <bullet>  Instituted a statewide fire prevention calendar using 
        our K-5 classrooms across the state.

        <bullet>  Serve as Chairman of Secretary of State Alexander 
        Treadwell's Task Force of the Development of a New Teacher 
        Course on instructing Fire and Life Safety in the Schools.

        <bullet>  Wrote two grants to the National Fire Protection 
        Agency for the implementation of their Risk Watch Curriculum 
        across New York State.

        <bullet>  Presented at the National Fire Protection Agency's 
        Risk Watch Coalition Training in Boston, MA.

        <bullet>  Presented for the Whitesboro Central School Teacher 
        Center a 90 minute course in the area of Risk Watch 
        implementation.

        <bullet>  Coordinated a committee to design a Fire Safety 
        brochure for Senior Citizens.

        <bullet>  Speaker at this year's ``Stop the Fire Before it 
        Starts'' workshops held across the state.

        <bullet>  Assisted with the training of future Risk Watch 
        communities across the state.

        <bullet>  Guest speaker at the National Fire Protection 
        Agencies Risk Watch Coalition Training in Boston, MA in 2002.

        <bullet>  Wrote a 2004 FEMA grant for Calendar, Essay Contest 
        and the statewide Risk Watch Program. This grant process has 
        received tentative approval for approximately $100,000. This 
        will enhance the three programs and help to reduce injuries in 
        children ages 14 and younger.

Professional memberships

National Association of Elementary School Principals

School Administrators Association of New York

Firemen's Association of the State of New York

National Fire Protection Agency

New York State Association of Fire Chiefs

Central New York Firemen's Association

Oneida County Fire Advisory Board

Past President of the Oneida County Volunteer Firemen's Association

National Fire Protection Agency

National Volunteer Fire Council

Community activities

St. Anne's Church, Whitesboro, New York--Member

St. Paul's Church--Member

Fire Chief--Whitesboro Fire Department

President--Whitesboro CS Baseball Boosters

YMCA Steering Committee Member for Whitestown

New Coordinator for the Oneida County Fire and Life Safety Expo for 
        Children--2005

Extracurricular activities

Chairman--New York State Alexander Treadwell's Task Force for the 
        Development of a College Credit Course in Public Life Safety 
        Education--This course was accepted by the New York State 
        Education Department of Higher Learning and is being pilot 
        tested this Spring semester

Chairman--Firemen's Association of the State of New York's Fire 
        Prevention Education Committee

Public Speaker/Presenter on Fire and Life Safety Education

Chairman--New York State Team Risk Watch Committee

Awards Won:

1992 National Volunteer Fire Council's Excellence in Fire Prevention

Firefighter of the Year: Whitesboro Fire Department

Distinguished Community Citizen Award: Whitestown American Legion Post 
        1113

2003--Distinguished Alumni Award--Daemen College

2004--Knight's of Columbus Humanitarian Award

Hobbies

Public Fire Education

Syracuse University sports

Golf

Family activities--Following my son in sports

Spending time with family and friends

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Now we'll hear from the training officer 
for the Aurelius Fire Department, Mr. David Perkins.

   STATEMENT OF DAVID T. PERKINS, TRAINING OFFICER, AURELIUS 
                   VOLUNTEER FIRE DEPARTMENT

    Mr. Perkins. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Miller, I'd like to thank you for the opportunity to appear 
before you today and provide testimony on this very important 
issue. My name is David Perkins. I'm a member of the Aurelius 
Volunteer Fire Department. We're located in Upstate New York 
just west of the city of Auburn. Our fire department functions 
with approximately 60 members; 30 of our members provide active 
service. The fire department operates out of two stations 
providing fire, rescue, and first response service to the 
residents of our community.
    In addition, we provide a number of specialized services to 
neighboring towns under mutual aid agreements. In 2003 the fire 
department responded to 289 alarms consisting of 86 fire-
related incidents and 203 EMS-related incidents.
    In fiscal year 2003 the Aurelius Fire Department was 
fortunate to be awarded $119,804 in round 17 in the Assistance 
to Firefighters Grant Program, otherwise known as the Fire Act, 
which the Aurelius Fire Department has benefited greatly from 
receiving this grant in several ways.
    A few examples of this are that we were able to upgrade our 
breathing apparatus to current NFPA standards. Possibly the 
largest benefit we realized is the ability to now have our 
members using state-of-the-art breathing apparatus that are, 
among other things, lighter in weight than our previous units, 
therefore reducing firefighter stress.
    In addition, the new breathing units allow for 
interoperability with some fire departments, therefore 
streamlining operations at emergency incidents. And the most 
important benefit of the breathing apparatus, however, is that 
it provides for a safer working environment for our members, 
therefore reducing the potential for injury and death.
    As a result of the grant we were also able to upgrade our 
communications equipment, specifically the equipment that is 
used during tactical situations during emergency incidents. 
With the addition of this equipment, every member that steps 
off a piece of apparatus can do so with a radio. This then 
allows for additional accountability of members in that members 
may stay in constant contact with the incident commander. The 
incident commander may more easily notify personnel of tactical 
decisions, and more importantly, relay critical messages to all 
to firefighters at a given incident.
    With the funds provided by the grant, we were also able to 
purchase additional equipment to supplement our existing 
equipment. This minimizes voids in inventory when units are 
providing assistance to other departments.
    One of the items we were able to duplicate in our inventory 
is a thermal imaging camera. The thermal imaging camera, or 
TIC, as it is most commonly known, is a vital part of both 
normal operations at structure fires as well as during the 
rapid intervention operations. During out-of-district rapid 
intervention operations it left the Aurelius Fire District void 
of this valuable life-saving technology. Fortunately, we were 
able to purchase a backup camera with grant funds to best 
ensure this technology is available to the residents of the 
Aurelius Fire District.
    As with most small communities, specifically in Upstate New 
York, the Aurelius Fire District continually struggles with 
budget constraints in an effort to keep taxes as low as 
possible for our residents. The members of the volunteer fire 
departments continuously endure the long hours of meeting 
training requirements, answering alarms, and participating in 
fundraisers in an attempt to offset budget shortfalls.
    This is becoming increasingly difficult in the last several 
years due in part to the reduction in the number of people that 
are able to dedicate their time to the volunteer fire service. 
The increase in the number of dual income families, members of 
the family that have to perform two jobs, and increased 
personal responsibilities have all contributed to this 
reduction. In addition to this, call volumes continue to 
increase, as well as training requirements, therefore reducing 
the amount of time able to be spent on fundraising to help 
supplement budgets.
    Had it not been for the Assistance to Firefighters Grant 
Program, I am confident in saying that the members of the 
Aurelius Fire Department would not have been able to see the 
benefit of this new equipment technology for another five to 
seven years, if at all.
    The Upstate region of New York, specifically Cayuga County, 
have been very fortunate to have several departments awarded 
grants. I believe that any department that applied for this 
grant is much better off from an operational and a preparedness 
standpoint, whether it did or did not receive a grant. One 
benefit of the application process that may not be realized is 
the necessity for an organization that is going to apply for a 
grant to review its internal resources and perform some long-
term planning, as well as review the resources of neighboring 
departments.
    Departments were forced to determine how the addition of 
the equipment would affect their day-to-day operations, as well 
as how the equipment would benefit and affect other 
departments. This determination had to be made from an 
interoperability standpoint, as well as an operational 
effectiveness standpoint. Additionally, how the equipment fits 
into local and state planning operating procedures.
    Sharing of this information and resources among fire 
departments became commonplace. With that said, however, 
departments that were not awarded grants still have very real 
needs for equipment that need to be addressed.
    I am very confident that there are departments in Cayuga 
County, including mine, and other parts of the country that are 
still using equipment that is several years past its 
usefulness, does not meet current NFPA and OSHA requirements, 
and is potentially hazardous to the members using it. This in 
many cases is no fault of the fire department, but a 
realization of the lack of financial resources to purchase 
compliant equipment.
    I'm sure there isn't a fire chief out there that doesn't 
want to have the best possible equipment that he or she can get 
for his firefighters, but there may not be a means for him or 
her to achieve this.
    After the attacks of September 11th, 2001, the mission of 
the American Fire Service did not change. We were still sworn 
to protect life and property. Our mission or scope, however, 
has broadened. This broadening has also added to the financial 
burden that fire departments face. The increased and very 
important new scope now includes the necessity to be prepared 
for weapons of mass destruction incidents, hazardous materials 
incidents, collapse rescue, confined space rescue, and several 
more areas.
    While fire departments can't be proficient in every one of 
these areas, at least the basic understanding and preparation 
is necessary. The basic level to the highest level means some 
additional financial burden to the fire department. The State 
and Federal governments have done very well in helping to 
offset the costs as much as possible, but there are still 
associated expenditures to this.
    The Assistance to Firefighters Grant Program is very 
positive and one of the most beneficial steps the Federal 
Government is taking in assisting emergency responders in 
America in recent years. In order for this to continue to 
benefit emergency responders, the program needs to continue to 
be funded so that more and more departments can benefit from 
having the safest equipment available.
    The Federal Government should not bear the entire burden of 
funding first responders. State and local officials must 
continue to look for ways to fund emergency services at a level 
that first and foremost is safe for responders and is of the 
highest quality and most technically advanced for those we 
serve.
    Unfortunately, funding equipment purchases is only one 
problem facing America's fire service today. An equally 
important problem is having staffing, staffing to an adequate 
level at incidents that safely and effectively ensures a 
positive outcome is paramount. Staffing issues continue to 
plague both the career and volunteer fire services.
    Fire departments working in conjunction with local and 
State and Federal Government need to be continuously looking 
for ways to fund additional career firefighters as well as 
initiatives to not only encourage people to volunteer, but ways 
to retain people currently volunteering.
    There needs to be incentives for those who choose to 
volunteer, whether it is tax relief, discounted or free tuition 
at state colleges, low-interest mortgages, retirement, or 
health benefits. Whatever it may be, something drastic needs to 
be done before manpower and membership levels drop any lower. 
In order for these initiatives, this initiative or any 
initiative of this type to happen, cooperation between all 
levels of government will be necessary in order to share in the 
potential financial burden.
    Without these initiatives and creativity in the recruitment 
and retention of volunteer firefighters, all the high-tech and 
safest equipment in the world can't be of benefit if there's 
nobody to use it.
    Every year in the United States approximately 100 members 
of the fire service lose their lives in the line of duty. But 
what is most dramatic about this is that since--in the 1970s 
and 1980s the number of structure fires annually has decreased. 
Another very disturbing portion of this, of the 100 deaths as a 
result--a large portion of the 100 deaths is as a result of 
heart attacks.
    The U.S. Fire Administration has done an excellent job and 
needs to research and promote the health and safety of 
firefighters, specifically through the continued training of 
members in building construction, the effects of buildings on 
fire, self rescue, and Get Out Alive Programs. Something needs 
to be done to continue to reduce the number of heart attack-
related deaths through screening and fitness directives.
    I cannot think of a more important program than ensuring 
the welfare of our emergency responders. The information gained 
from the Health and Safety Technical Reports to the Everyone 
Goes Home: Life and Safety Summit, is information that is 
detrimental--or excuse me, is beneficial to the American Fire 
Services and needs to continue. The U.S. Fire Administration 
needs to continue to provide technical reports on ways to 
reduce firefighter death and injuries in an effort to 
continuously educate fire departments of a hazard before it's 
too late.
    The U.S. Fire Administration is an invaluable resource of 
information, the sharing of information and training. The U.S. 
Fire Administration web site is a valuable resource of 
information through its Trade Net site, reports and 
publications, as well as hundreds of training opportunities, 
whether in the field, online, or at the National Fire Academy.
    Although I have never taken the opportunity to attend the 
training at the National Fire Academy, I've been told that the 
facilities and instructors and curriculum are second to none. 
As we constantly remind ourselves, training is the backbone of 
emergency services, and failing to train is training to fail.
    In conclusion, there are several challenges facing the Fire 
Service today. Many local governments are struggling to 
maintain the level of service they provide today from a 
financial and a personnel standpoint. With that said, some of 
these very important programs are health--health and fitness 
cannot be implemented due to lack of funds or resources. 
Without help at the State or Federal Government, these 
additional programs cannot become a reality. Additionally, the 
Federal Government needs to continue to fund programs like the 
Fire Act to help municipalities meet some of their basic needs.
    Chairman Boehlert. Thank you very much.
    [The prepared statement of Mr. Perkins follows:]

                 Prepared Statement of David T. Perkins

    Mr. Chairman and Committee Members, thank you for the opportunity 
to appear before you today and provide testimony on this very important 
issue. My name is David T. Perkins and I am a member of the Aurelius 
Volunteer Fire Department. The Aurelius Fire Department is located in 
central Cayuga County and is a suburb on the west side of the City of 
Auburn, New York. The Fire Department was established in 1945 and is 
governed by the Aurelius Fire District, which consists of a board of 
five Fire Commissioners. The Fire Department protects approximately 
30.2 square miles with a population of approximately 3200 permanent 
residents. Due to the number of commercial establishments within the 
town, the population triples and even quadruples during business hours. 
The Fire Department functions with approximately sixty members. Thirty 
of our members provide active service. The Department operates out of 
two Stations providing Fire, Rescue and First Response EMS Service to 
the residents of our community. In addition, we provide a number of 
specialized services to neighboring towns under mutual aid agreements. 
In 2003 the Fire Department responded to 289 alarms consisting of 86 
fire related incidents and 203 EMS related incidents. Our members spent 
6542.82 hours this year involved in Fire Department related functions 
with 3192.98 hours spent answering alarms, 2234.95 hours spent training 
and 1114.89 hours spent conducting other Fire Department operations.
    In fiscal year 2003 the Aurelius Fire Department was fortunate to 
be awarded $119,804.00 in round seventeen of the Assistance to 
Firefighters Grant Program (Fire Act). The Aurelius Fire Department has 
benefited greatly from receiving this grant in several ways. We were 
able to upgrade our breathing apparatus to current NFPA standards. 
Possibly the largest benefit we realized is the ability to now have our 
members using state of the art breathing apparatus that are, among 
other things, lighter in weight than our previous units, therefore 
reducing firefighter stress. In addition, the new breathing apparatus 
allows for inter-operability with some neighboring departments, 
therefore streamlining operations at emergency incidents. The most 
important benefit of the breathing apparatus, however, is that it 
provides for a safer working environment for our members by reducing 
the potential for injury or death.
    As a result of the grant we were also able to upgrade our 
communications equipment, specifically the equipment that is used in 
tactical situations during emergency incidents. With the addition of 
this equipment, every member that steps off a piece of apparatus can do 
so with a radio. This then allows for additional accountability of 
members, in that members may stay in constant contact with the incident 
commander. The incident commander can more easily notify personnel of 
tactical decisions and more importantly relay critical messages to all 
firefighters at a given incident.
    Our department performs several functions for neighboring 
departments that many times take us out of our district. One of these 
services is known as a Rapid Intervention Team or RIT Team. The sole 
function of this rescue team is to stand by at the scene of structure 
fires with specialized equipment to ensure that firefighters operating 
in hazardous environments will have assistance in being rescued should 
they become trapped, lost or incapacitated in some way. When functions 
such as RIT Team operations were preformed out of district it would 
leave a void in our equipment inventory and reduce our capabilities in 
our primary jurisdiction. With the funds provided by the grant, we were 
able to purchase additional equipment to supplement our existing 
equipment. This minimizes voids in inventory when units were providing 
assistance to other departments. One of the items we were able to 
duplicate in our inventory is a Thermal Imaging Camera. The Thermal 
Imaging Camera, or TIC as it is most commonly known, is a vital part to 
both normal operations at structure fires as well as during RIT 
operations. During out of district RIT operations it left the Aurelius 
Fire District void of this valuable life saving technology. 
Fortunately, we were able to purchase a back up camera with grant funds 
to best insure this technology is available to the residents of the 
Aurelius Fire District.
    As with most small communities, specifically in upstate New York, 
the Aurelius Fire District and Fire Department continually struggle 
with budget constraints in an effort to keep taxes as low as possible 
for our residents. The members of volunteer departments continuously 
endure the long hours of meeting training requirements, answering 
alarms, and participating in funds raisers in an attempt to offset 
budget short falls. This has become increasingly difficult in the last 
several years, due in part to the reduction in the number of people 
able to dedicate the time to the Volunteer Fire Service. The increase 
in the number of dual income families, members of the family that have 
to work two jobs and increased personal responsibilities have all 
contributed to this reduction. In addition to this, call volumes 
continue to increase as well as training requirements, therefore 
reducing the amount of time able to be spent raising funds to 
supplement budgets. Had it not been for the Assistance to Firefighters 
Grant Program, I am very confident in saying that the members of the 
Aurelius Fire Department would not have been able to see the benefit of 
this new equipment technology for five to seven years if at all.
    The upstate New York region and specifically Cayuga County have 
been very fortunate to have several Departments awarded grants. I 
believe that any Department that applied for the grant is much better 
off from an operational and preparedness standpoint whether or not it 
received the grant. One benefit of the application process that may not 
be realized is the necessity for an organization that is going to apply 
for a grant, to review its internal resources and perform some long-
term planning, as well as review the resources of neighboring 
Departments. Departments were forced to determine how the addition of 
the equipment would affect their day to day operations as well as how 
the equipment would benefit and affect other departments. This 
determination had to be made from an inter-operability standpoint as 
well as an operational effectiveness standpoint. Additionally, how the 
equipment fits into local and State planning and operating procedures. 
Sharing of information and resources among Fire Departments became 
commonplace. With that said, however, Departments that were not awarded 
grants still have very real needs for equipment that have to be 
addressed. I am very confident that there are Departments in Cayuga 
County, including mine, and other parts of the country that are using 
equipment that is several years past its usefulness, does not meet 
current NFPA and OSHA requirements and is potentially hazardous to the 
members using it. This is in many cases at no fault of the Department 
but a realization of the lack of financial resources to purchase 
compliant equipment. I'm sure there isn't a Fire Chief out there that 
doesn't want the best possible equipment he can get for his or her 
firefighters, but there may not be the means to achieve this.
    After the attacks on September 11, 2001 the mission of the American 
Fire Service did not change. We still are sworn to protect life and 
property. Our mission or scope however was broadened. This broadening 
has also added to the financial burden that Fire Departments face. The 
increased and very important new scope now includes the necessity to be 
prepared for Weapons of Mass Destruction incidents, hazardous materials 
incidents, collapse rescue, confined space rescue and several more 
areas. While every Fire Department can't be proficient in every one of 
these areas, at least basic understanding and preparation is necessary. 
This basic level to the highest level means some additional financial 
burden to the Fire Department. The Federal and State governments have 
done very well in helping to offset these costs as much as possible but 
there are still associated expenditures to this.
    The Assistance to Firefighters Grant Program is a very positive and 
one of the most beneficial steps the Federal Government has taken in 
assisting Emergency Responders in America in recent years. In order for 
this program to continue to benefit emergency responders, the program 
needs to continue to be funded so that more and more departments can 
benefit by having the safest equipment available.
    The Federal Government should not bare the entire burden of funding 
first responders. State and local officials must continue to look for 
ways to fund emergency services at a level that first and foremost is 
safe for the responders, and is of the highest quality and most 
technically advanced for those we serve. Unfortunately, funding 
equipment purchases is only one portion of the problem facing the 
American Fire Service today. An equally important problem is staffing. 
Having an adequate number of people at incidents to safely and 
effectively ensure a positive outcome is paramount. Staffing issues 
continue to plague both the career and volunteer Fire Services. Fire 
Departments working in conjunction with local, State and Federal 
Government need to be continuously looking for ways to fund additional 
career firefighters as well as initiatives to not only encourage people 
to volunteer but ways to retain personnel currently volunteering. There 
needs to be incentives for those that choose to volunteer whether it is 
tax relief, discounted or free tuition in State colleges, low interest 
mortgages, retirement or health benefits. Whatever it may be, something 
drastic needs to be done before membership levels drop any lower. In 
order for these initiatives, or initiatives of this type, to happen, 
cooperation between all levels of government will be necessary in order 
to share in the potential financial burden. Without these initiatives 
and creativity in the recruitment and retention of volunteer 
firefighters, all the high tech and safest equipment in the world can't 
be of benefit if there is no one to use it.
    Every year in the United States approximately one hundred members 
of the Fire Service loose their lives in the line of duty. What is most 
dramatic about this is that since the 1970s and '80s the number of 
structure fires annually has decreased. Another very disturbing part of 
this is that a large portion of the one hundred deaths is a result of 
heart attacks. The USFA has done an excellent job and needs to continue 
research and promote the health and safety of firefighters, 
specifically through continued trained members in building 
construction, the effects of buildings on fire, self rescue and Get Out 
Alive Program techniques. Something needs to be done to reduce the 
number of heart attack related deaths through screening and fitness 
directives. I cannot think of a more important program than insuring 
the welfare of our Emergency Responders. The information gained, from 
Health and Safety Technical Reports to the Everyone Goes Home: Life 
Safety Summit, is information that is beneficial to the American Fire 
Service and needs to continue. The USFA needs to continue to provide 
technical reports on ways to reduce firefighter death and injury in an 
effort to continuously educate Fire Departments of the hazards before 
it's too late.
    The USFA is an invaluable resource for information, the sharing of 
information and training. The USFA website is a valuable resource of 
information through it's Trade Net site, reports and publications as 
well as hundreds of opportunities for training whether in the field, 
on-line, or at the National Fire Academy. Although I have never taken 
the opportunity to attend a training course at the National Academy, I 
have been told that the facilities, instructors and curriculum are 
second to none. As we constantly remind ourselves TRAINING is the 
backbone of emergency services and failing to train is training to 
fail.
    In conclusion there are several challenges facing the Fire Service 
today. Many local governments are struggling to maintain the level of 
service they provide today from a financial and a personnel stand 
point. With that said, some of these very important programs like 
health and fitness can not be implemented due to lack of funds or 
resources. Without the help of the State and Federal Government these 
additional programs cannot become a reality. Additionally, the Federal 
Government needs to continue to fund grant programs like the Fire Act 
to help municipalities meet some of their basic needs.

                     Biography for David T. Perkins

FIRE DEPARTMENT BIOGRAPHY

    The Aurelius Fire Department is located in central Cayuga County 
and is a suburb on the west side of the City of Auburn, New York. The 
Fire Department was established in 1945 and is governed by the Aurelius 
Fire District, which consists of five Fire Commissioners. The Fire 
Department protects approximately 30.2 square miles with a population 
of approximately 3200 permanent residents. Due to the number of 
commercial establishments within the town the population triples and 
even quadruples during business hours. The Fire Department functions 
with approximately sixty members. Thirty of the members provide active 
service. The Department operates out of two Stations performing Fire, 
Rescue and First Response EMS Service to the residents of our 
community. As well as providing specialized services to our neighboring 
Towns under mutual aid agreements. In 2003 the Fire Department 
responded to 289 alarms consisting of 86 Fire related incidents and 203 
EMS related incidents. Our members spent 6542.82 hours this year 
involved in Fire Department related functions with 3192.98 hours 
answering alarms and 2234.95 hours spent training and 1114.89 hours 
conducting other Fire Department operations.

PERSONAL BIOGRAPHY

    My name is David T. Perkins and I am a Firefighter/EMT and Training 
Officer with the Aurelius Volunteer Fire Department located in central 
Cayuga County near Auburn, New York. I was born in Auburn, New York and 
raised in near by Scipio Center, New York in southern Cayuga County. I 
am a graduate of Southern Cayuga Central School as well as a graduate 
of Broome Community College with an Associate's degree in Fire 
Protection.
    My fire service career started in 1986 when I joined the Scipio 
Volunteer Fire Company as their first 16-year-old member. I held every 
line officer position in the Company including two years as Fire Chief. 
In 1997 I relocated to Aurelius, New York and joined the Aurelius 
Volunteer Fire Company where I have held several line officer positions 
including Assistant Chief. In addition to my duties with the Aurelius 
Fire Department, I am also employed part-time by Cayuga County 
Emergency Services as a Deputy Fire Coordinator in the 3rd Battalion.
    I currently am employed by E-One New York located in Preble, New 
York whose primary business purpose is the manufacture of Firefighting 
Vehicles. I reside in Aurelius with my wife Tammy and my daughters 
Taylre (age 5) and Grace (age 2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Now our final witness comes from the 
Office of Emergency Management and is Fire Coordinator for 
Cayuga County, Mr. Pat DiNonno.

    STATEMENT OF PAT DiNONNO, DIRECTOR, OFFICE OF EMERGENCY 
       MANAGEMENT AND FIRE COORDINATOR FOR CAYUGA COUNTY

    Mr. DiNonno. Thank you, Mr. Chairman and Mr. Miller, for 
the opportunity to testify to this hearing today.
    Our office is a multi-phased office, it's not just 
Emergency Management. Within our office is the Fire 
Coordinators Division and an EMS Coordinators Division. Both of 
those divisions have a coordinator and five or six deputies 
underneath them. They are all very, very minimally paid, part-
time employees. They work many hours, they're on call 24/7, and 
they are, as I said, very minimally paid. Basically in some 
cases it's a token for their time that they serve.
    The coordinators serve as a liaison between the fire 
departments and/or emergency medical services and our Emergency 
Management office. They are also an on-scene resource to the 
command corp at any event that they are called out to or on an 
automatic call-out, depending on the type of incident.
    The fire coordinator is a point of contact for the New York 
State Office of Fire Prevention and Control, OSHA PESH issues, 
other health and safety issues, and state and local mutual aid. 
They are also in charge of three of our county teams--I'm 
sorry, four of our county teams: a HAZMAT team, a high angle 
rescue team, fire investigation team, and also our fire 
advisory board. They are also the contact point for the County 
Fire Training Tower Facility, which has been in operation less 
than a year.
    That facility had been talked about for more than 50 years 
and finally is truly a place where we can go and train. It is 
being used as we talk. Currently, along with members of the 
Auburn Fire Department we have the Department of Corrections 
people there training for their work together with Emergency 
Services. They are also the contact point for homeland security 
issues and the New York State Fire Instructors, who provide the 
fire service training to all the fire departments that would 
like to take use of their expertise within the county. With 
these services they are paid instructors by New York State, we 
are their contact point. They provide the state-certified 
courses, we provide the office support. We do the class 
scheduling with the instructors and the fire departments. We 
help set up for the classes and we send out notifications to 
all the departments so that they know when the classes are 
available, and they in turn register for those classes.
    We are also tied to the fire coordinator's office 
notification for fire training classes available to other 
sources such as the Federal Government, some of which have 
already been named today, such as FEMA classes, the MI 
institute, the Anniston, Alabama programs, and the ones in Las 
Vegas and New Mexico. And there are other training programs 
that are provided through local resources and/or people that--
or organizations that are paid to come in and provide some in-
service training for all our departments.
    On the EMS coordinator's side of the program they too are 
an on-scene resource, and they too are points of contact for 
the New York State Department of Health for OSHA PESH issues, 
for health and safety issues, for state and local mutual aid, 
and also for the county teams, as I already mentioned, the 
HAZMAT team. We also have a critical incident stress management 
team which is very useful out there for the many incidences 
that these people get involved with and then later have to go 
back and try to deal with after hours.
    The EMS Advisory Board and homeland security issues. The 
medical training is provided through our office with the help 
of a medical director who oversees the New York State 
Department of Health training programs. These programs certify 
our EMTs that are out in the field and actually serving the 
communities by providing care to the sick and injured. The 
medical director is responsible to review all the curriculum 
coming out of New York State to be sure that it is presented 
properly at our classes; the hiring of instructors, we do all 
of that through our office. We hire the instructors; the 
instructors are working for us. We handle the book sales for 
the courses so that these students don't have to go out and pay 
exorbitant fees for the books.
    Purchasing, maintaining training equipment and supplies, 
this is a very, very expensive portion of the program. The 
training equipment for medical training is very expensive, gets 
well used during our classes, and it has a point in time where 
it eventually wears out and needs to be totally upgraded or 
replaced. We also provide for all the scheduling of these 
classes along with notification for all EMS units.
    The challenges and needs of the responders in our county, 
they've already been addressed to some degree here by the other 
participants, but in my view manpower shortages currently are 
one of the biggest issues that we face. Many times there are 
very limited personnel at emergency scenes, especially in the 
daytime when the people are out earning their money so they can 
raise and support their families.
    There are strained budgets for personnel in the paid 
departments, manpower levels in all the departments, along with 
the volunteers, as I stated, daytime staffing. In some cases 
some of these departments now are going to minimally paid 
employees to help offset some of that staffing need.
    We foresee the need in the future that this will expand, 
and it has already expanded into some of our county EMS 
departments. In order to get a guaranteed response, people are 
on staff now in this department. So as such, recruitment and 
retention is our big issue here for our volunteer departments, 
whether they be for the fire and/or the EMS.
    We need some programs to address this issue. I don't have 
an answer, I don't have a lot of suggestions. We have tried to 
cope with this in the past with committees, and it just seems 
that nobody has come up with the right answer yet. To me, that 
is our number one issue.
    The second issue that's compounded in our county is 
communications, not only for fire and EMS, but law enforcement 
also. We are a county that has a lake in the middle of it, a 
lake on each side of it, and a lake on the north end of it. The 
lakes create all the different valleys, and the radio waves 
don't seem to want to follow the routes where the fire trucks 
and the ambulances and police cars are, so we have a lot of 
problems.
    Chairman Boehlert. Those lakes are a blessing, but they 
also pose some challenges.
    Mr. DiNonno. Yes, they do. Our outdated radio systems do 
not allow for adequate communications and become a safety issue 
for all the first responders, as I said, fire, EMS, and law 
enforcement.
    And new also to first responders now with the homeland 
security issues are our Health Department people and our DPW 
crews. They are also now a part of our emergency response 
procedures. They need to be involved in some of these issues 
also. Our need for interoperable radio systems is probably a 
number one priority after manpower. Manpower we can't throw a 
lot of money into unless we're going to pay people to come in, 
but money can help the communication problem.
    Training: Training provides adequate safety for our 
responders. But again, due to limited funding, we are not 
always able to do the training that we need. Funding is needed 
for a training facility to help us put up a classroom. It is 
also needed to help us put in a propane burn unit. 
Unfortunately, in the grants program county facilities are not 
allowed to participate. I would ask that somewhere in the 
future that county facilities be included under these grant 
programs. I think the county facilities can give you a bigger 
bang for your buck as far as the numbers of people that get 
trained.
    Funding is also needed for the outside training where 
people are being sent to seminars and conferences and the other 
programs that have been mentioned previously.
    Equipment purchases: We need to maintain, again, this 
funding for all the personal protective equipment, some of 
which is displayed over there on the table to your left that 
was recently purchased here in Auburn. Rescue equipment needs 
to be replaced; EMS medical equipment needs to be replaced; and 
vehicles need to be replaced.
    As far as the federal, State, and local roles, with my 
office I think all government needs to know exactly what 
functions all the offices involved are. A lot of times we just 
assume things but we aren't really sure what is actually going 
on until some disaster happens, and then we wonder where things 
are or where things aren't.
    We need to--the State, Federal, and local governments need 
to support our constituents and initiatives for public safety, 
including all the homeland security issues that are out there 
now. As was stated previously by one of the other speakers, 
whether you're dealing with a manmade or a natural disaster, 
the same functions have been endured and made a homeland 
security issue.
    For federal support, the continued fire service grant 
programs is a must, funded to the highest amounts possible, and 
I know that somewhere down there the well stops producing 
water. We also need to continue the Homeland Security Grant 
Programs through the WMDs program. But we need for those 
programs to have realistic time frames. Currently we get 
requests to participate in these programs and we have about two 
weeks to put the application in. And a lot of times we're not 
putting the application in properly because they're given the 
training after the fact, and they're telling us what's wrong. 
Tell us what's----
    Chairman Boehlert. That's DHS you're talking about. DHS, 
Department of Homeland Security.
    Mr. DiNonno. Yes.
    Chairman Boehlert. Not the Fire Assistance Grant Program.
    Mr. DiNonno. Yes.
    Chairman Boehlert. Are you about ready to wrap it up?
    Mr. DiNonno. Yes. The grant application should allow for 
more user-friendly grant writing procedures. And again, it's 
the DHS we're talking about. Very cumbersome, very ambiguous 
format, time consuming, and a waste of personnel, and in some 
cases it's not cost effective for the amount of money that we 
are getting in return. All of our emergency management offices 
are minimally staffed and do not have persons available at a 
given minute to put this program together.
    Counter-terrorist support. We need to continue the funding, 
as I had stated. The traditional first responder programs are 
minimal training programs, and we need to continually upgrade 
those programs to reflect on the homeland security issues. We 
need to develop new and advanced terrorism training programs.
    Chairman Boehlert. Mr. DiNonno, could I ask you to submit 
the remainder of your statement? Because we're getting in 
Department of Homeland Security issues, which are very 
important, but the thrust of this hearing is to deal with the 
Assistance to Firefighters Program.
    And I think you would acknowledge that this program is a 
well-run program. You're probably suggesting that the rest of 
the Department of Homeland Security model their efforts after 
what we're doing here.
    Mr. DiNonno. Absolutely.
    Chairman Boehlert. Well, your statement will appear in the 
record in its entirety.
    [The prepared statement of Mr. DiNonno follows:]

                  Prepared Statement of Pat D. DiNonno

    Background on the responsibilities and activities in the Cayuga 
County Emergency Management Office:

    Currently the office consists of the following full time personnel:

        <bullet>  Director of Emergency Services, Pat DiNonno

        <bullet>  Deputy Director of Emergency Management, Victoria 
        Chamberlain

        <bullet>  Administrative Officer for Emergency Medical 
        Services, Margaret Mach

        <bullet>  Secretary/Typist, Joy Pamplun

    The following are part-time personnel:

        <bullet>  (1) Deputy Director for Fire/Rescue Services, Ed 
        Laraway

        <bullet>  (6) Deputy Fire Coordinators

        <bullet>  Medical Director for Emergency Medical Services

        <bullet>  Deputy Director for Emergency Medical Services, Roman 
        Rotko

        <bullet>  (5) Deputy Emergency Medical Coordinators

    The following are approximately number of contractual personnel:

        <bullet>  (8) EMS Certified Instructor/Coordinators

        <bullet>  (21) EMS Certified Laboratory Instructors

        <bullet>  (21) EMS Practical Work Instructors

    The following are approximately number of volunteer personnel:

        <bullet>  (20) Auxiliary Police Officers

        <bullet>  (35) Amateur Radio Operators

        <bullet>  (25) High Angle Rescue Team Members

        <bullet>  (25) Fire Investigation Team Members and

        <bullet>  (10) Critical Incident Stress Debriefing Team Members

ROLE

    The mission statement for the Emergency Management Office is ``to 
provide for life, safety, property and environment protection from all 
natural and manmade hazards that may occur within Cayuga County through 
a comprehensive and integrated emergency management planning and 
execution system approach.''
    The role of the office is multi-faceted, but basically includes 
training and education of emergency services personnel and the public. 
It also includes coordinating preparedness, mitigation, response and 
recovery of all agencies and personnel to any potential or actual 
manmade or natural disaster that threatens life, property and/or the 
environment in Cayuga County. The severe weather events are: flood, 
drought, hurricane, tornado, winter storm, ice storm. Also, the office 
handles events such as hazardous material or radiological release, 
airplane crash, train derailment, dam failure, long term power failure, 
mass casualty incidents or act of domestic terrorism.
    Our office routinely provides resource information and interacts 
with Fire, Emergency Medical, Law Enforcement, the American Red Cross, 
the New York State Health Department, the County Health Department, the 
Planning Department and the New York State Weapons of Mass Destruction 
Taskforce on a wide range of issues. We function as the coordinator 
between local and State/Federal Government in matters related to 
Federal Grant/Loan monies. We provide Emergency Medical, CPR and Fire 
training for all county first responders.
    When a State of Emergency has been declared (whether it be a 
County, State, or federal) our office becomes very active and is the 
key communication and contact center. When a Presidential Declaration 
is declared affecting Cayuga County, our office staff and coordinators 
provide information for the Federal Emergency Management Agency (FEMA) 
and the State Emergency Management office (SEMO). We provide assistance 
during the emergency and through the recovery operation process to 
individuals, municipalities, or businesses. FEMA and SEMO agency 
representatives are given office space and staff support from our 
office which allows them to service eligible entities.

EMERGENCY MEDICAL & FIRE TRAINING

    We provide Emergency Medical training for all EMS responders using 
State Health Department Programs and Curriculum. Fire training is 
provided with State Fire Instructors teaching State Fire Service 
Courses for all fire departments.

POLICIES

    The Emergency Management Office works closely and cooperatively 
with the Cayuga County Chapter of the American Red Cross, the Salvation 
Army, the New York State Health Department, Schools, Nursing Homes, 
Residential Centers (Adult Care and Day Care), County Government, the 
County Health Department, the County Planning Department, Towns, 
Villages, the City of Auburn and the Local Emergency Planning Committee 
(LEPC) in planning and preparedness for any potential manmade or 
natural disaster. In addition, this office will communicate with, 
support and assist these organizations in any way necessary and 
possible before, during and after any disaster relative to the 
provision and coordination of human needs.

OPERATIONS

    The Emergency Management Office can activate our County Emergency 
Operations Center (EOC) anytime it is needed. In the event that it 
becomes necessary, the Cayuga County Emergency Management Office will 
provide supplemental and/or primary communications between the 
organizations and the EOC by the use of RACES personnel (Radio Amateur 
Civil Emergency Services). Further, this office will coordinate the 
provision of any other support services or functions as necessary.

Present your views on the legislation:

    I am in complete support of the Assistance to Firefighters Grant 
Reauthorization Act of 2004. This legislation has, in the past, allowed 
various fire departments to obtain funding for equipment, training and 
communications which otherwise would have not been obtained because of 
limited budget resources. To continue this program would guarantee 
those departments awarded funding under the program to provide 
essential services within their response area. This will assure that 
the department members are properly trained and equipped with the 
necessary safety equipment and vehicles. The addition to this 
legislation will include grant awards to EMS response for volunteer 
medical service squads as an important features which I support.

How does your office coordinate with Cayuga County Fire Departments?

    The Fire Coordinator's office is an integral part of our office 
staffed with a Fire Coordinator and Deputy Fire Coordinator who are 
minimal, part time employees and compensated sparsely although they may 
work long hours. They are the liaison between the individual fire 
departments in their district and our Emergency Management Office and a 
point of contact for:

         NYS Office of Fire Prevention and Control, OSHA/PESH, health 
        and safety issues, State and local mutual aid, Hazardous 
        Materials Team, Fire Investigation Team, High Angle Rescue 
        Team, the County Fire Training Tower, Fire Advisory Board and 
        Homeland Security.

    Our office provides fire training with State Fire Instructors who 
teach State Fire Service Courses for all fire departments. We provide 
office support and point of contact for the State Fire Instructors. In 
addition, we set up class schedules and provide notification to all 
first responders for all available classes.
    The EMS Coordinator's office is another integral part of our office 
staffed with an EMS Coordinator and Deputy EMS Coordinator who are also 
minimal, part-time employees. They are the liaison between the 
individual EMS units in their district and the Emergency Management 
Office. They are a resource for information and a point of contact for:

         NYS Department of Health, OSHA/PESH, health and safety issues, 
        State and local mutual aid, Hazardous Materials Team, Critical 
        Incident Stress Management Team (CISM), EMS Advisory Board and 
        Homeland Security.

    In addition, the EMS Office provides all of the State Certified 
medical training for all EMS and employs a Medical Director who 
oversees the State Health Department Programs and Curriculum. The EMS 
office duties encompasses all aspects from hiring of instructors to 
sale of books, review of curriculum and purchasing and maintaining 
training equipment and supplies.

What issues present the greatest challenges for first responders 
                    (including police, EMS and others) in your area:

    One challenge is being able to function adequately with limited 
personnel at emergency scenes.
    Another challenge is trying to communicate with outdated radio 
systems that do not allow complete and adequate communication coverage 
between those on the scene and the 9-1-1 Communication Center.
    It is a challenge to try to provide adequate training for first 
responders without enough financial resources.

What are the most pressing needs in terms of equipment, staffing, 
                    training, communication:

    The most critical issue is manpower shortage for all responding 
agencies. Budgets are strained for manpower within the paid 
departments.
    Recruitment and retention is an on-going problem within the 
volunteer departments. Programs need to be developed to assist in 
recruitment and a form of reward for volunteer services. There is a 
need to maintain funding for needed equipment such as personal 
protective equipment, rescue equipment, EMS medical equipment and new 
vehicle purchases is pressing.
    Within the communication area, there is also a need for new inter-
operable radio systems.
    There is an urgent need for financial resources to complete the 
Fire Training Center that will include a classroom building and a 
propane fueled burn room. Currently the Assistance to Firefighters 
Grant do not allow for funding to be used in a county facility. 
Completing our Fire Training Center would allow all county fire 
departments better use of the facility.
    There is a crucial financial need to send first responders for 
classroom training, conference and seminars and other related expenses.

What are the appropriate roles of Federal, State and local governments 
                    in helping your office meet its responsibilities to 
                    protect the public:

    In order to support our office, the levels of government need to 
know exactly what functions our office is responsible for and to 
support our decision and initiates for public safety.

In what ways can the Federal Government, in particular the Department 
                    of Homeland Security and the U.S. Fire 
                    Administration, improve its support for offices 
                    like yours?

    Continue fire service grant programs for individual fire 
departments.
    To improve support, we would like changes in the Homeland Security 
grant programs. First, we would like a realistic time frame to complete 
the application with training. Second, that they can be written in a 
user-friendly manner. This will allow for flexible decision-making and 
make it easier to spend the funds for what we determine is the need.

How should the Federal Government balance support for counter-terrorism 
                    activities with that of more traditional first 
                    responder programs?

    Additional funding needs to be provided for counter-terrorist 
activities through Homeland Security grant programs. Traditional first 
responder programs are minimum training programs and need to be 
continually upgraded to reflect Homeland Security issues.

Personal Comments:

    Located at the Cayuga Community College is the ``Institute for the 
Application of Geospatial Technology'' (IAGT) led by Chief Executive, 
Robert N. Brower. This Institute has is a highly sophisticated computer 
system that can be utilized for responder training, emergency 
preplanning and during actual emergency events. After the 9/11 
Terrorist Attack, various Cayuga County emergency personnel were 
utilized by the IAGT to aid New York City Emergency Responders in their 
recovery efforts. I highly recommend promotion of this organization as 
stated above.
    I would support additional legislation that would allow funding 
grants for county owned training facilities.

                      Biography for Pat D. DiNonno

Work-related Background:

        <bullet>  32 years experience as a member of Auburn Fire 
        Department retiring with rank of Assistant Chief

        <bullet>  11 years experience as Hazardous Materials 
        Coordinator for Cayuga County

        <bullet>  four years experience as Director of Emergency 
        Services for Cayuga County

        <bullet>  Adjunct State Fire Instructor

        <bullet>  Homeland Security point of contact for Cayuga County

        <bullet>  Active member of:

                <bullet>  Fire Advisory Board

                <bullet>  EMS Advisory Board

                <bullet>  Local Emergency Planning Committee

                <bullet>  Citizen Corp Council

                <bullet>  Cayuga County Association of Emergency 
                Services

                <bullet>  New York State Emergency Management 
                Association

Educational Experience

AAS Fire Science, Cayuga Community College

Military Background

eight years Coast Guard Reserve

                               Discussion

    Chairman Boehlert. Just let me say a couple of things. 
First of all, you have mentioned specifically, and Chief 
McQueen did, but I'm sure Mr. Perkins and Chief Quill had 
mentioned recruitment and retention problems.
    Now, Chief, with a paid department you probably don't have 
as serious a problem with that as they do with the volunteers, 
but things have changed. And so under the new SAFER Act--and 
this is not the purpose of this hearing, but another bill that 
I've introduced--under the new SAFER Act there will be 
assistance, and we've got $50 million approval in this Congress 
to launch that assistance to hire personnel with a combination 
of federal dollars and local dollars. So that's something 
that's very important.
    Secondly, Mr. Perkins, I'm so pleased that you mentioned 
the health and wellness programs. Because a lot of people will 
look at this overall plan and say you mean you're giving out 
federal grants to departments for health and wellness programs. 
What do they do, exercise? The answer is yes. And as you 
pointed out, of the 100 firefighters who lost their lives in 
the line of duty last year, half of them did so from heart 
attacks. And if you had a good health and wellness program, 
maybe some of those could have been prevented. So I thank you 
for that, and we're going to continue that.
    But I want to stress for Mr. DiNonno's benefit particularly 
the importance of getting out information on this Assistance to 
Firefighters Program. What a number of my colleagues have said 
to me, how come your area is doing so well, is it because 
you're chairman of the committee? And the answer is no, not 
because I'm chairman of the committee, it's because we have had 
training seminars for all our firefighters. We had one at 
Cayuga College, Chief, and your people were there, and so were 
your people, Mr. Perkins. We had one in Whitesboro. We had over 
100 people come to that program from fire companies all around 
the surrounding area.
    Because quite honestly, most volunteer fire companies, even 
the paid companies, you don't have a grant writer on staff, you 
don't have experience in writing grants. Now, Chief McQueen is 
very eloquent, he does a good job. But I'll tell you--well, I 
won't tell you, I'll ask you, how important were those training 
seminars for your company in providing you with the information 
you needed to tailor your application that ultimately proved 
successful? Chief Quill.
    Mr. Quill. Thank you, Mr. Boehlert.
    Chairman Boehlert. And let's try to make our answers and 
questions short if we can.
    Mr. Quill. It was excellent training. Mr. Mike Penna, I 
believe he works for FEMA, he was in both Cayuga Community 
College and in Geneva this last year. He did an excellent job. 
It's terrific information. It's information for a firefighter 
on the firefighter's level to compete in these grants. 
Excellent.
    Chairman Boehlert. Thank you, Chief. How about you, Chief 
McQueen?
    Mr. McQueen. Same thing, Congressman. We also had Mike 
Penna. It was very fruitful for me. I mean, I had struck out 
two times, but it wasn't going to keep us down. And every time 
I went back into these training sessions I picked up different 
aspects of the grant that would make it more successful. I was 
very pleased. He did a great job.
    Chairman Boehlert. Mr. Perkins.
    Mr. Perkins. Same response. I think it becomes an 
interpretation, how certain parts of the application are 
interpreted, and we were able to face-to-face ask FEMA what our 
interpretation was versus theirs and get a resolution to that.
    Chairman Boehlert. I say this for the benefit of Mr. Miller 
visiting from North Carolina. Now, not all the districts around 
the country have these training seminars, and I'm trying to 
encourage Members of the Committee to do it, because you give 
the local fire company the knowledge, the procedure to follow, 
and they can develop a good application to justify what they're 
asking for, the life-saving equipment like this that's turned 
out here, breathing apparatus.
    Invariably here is my experience: I'll get someone from a 
fire company that says, gee, I heard about this new program. 
How come we didn't get any money? I'll say, one, did you apply? 
And the answer is, well, no. How do you expect to get money if 
you didn't apply? Two, did anyone from your fire department go 
to the training seminar? We had one at Cayuga College, we had 
one in Whitesboro, we had one in Geneva. I've had them all over 
the district. Well, no. Well, look, this money is not money 
from heaven; you don't just pray for it, you have to earn it.
    So we'll continue to have these programs. And before I turn 
it over to Mr. Miller, we're going to rotate back and forth 
with questions, I just want to tell you some good news. The 
President of the United States and the administration support 
the continuation of this program, support my basic legislation 
initiative program. The question we're going to have to decide 
is how much. And it won't surprise any of you to learn that 
there's a lot of competition for funds in Washington.
    And Mr. DiNonno, you just outlined a request for a lot 
more, and I understand that. And my view is I'm going to try to 
get as much federal assistance for our programs as we can, 
which eases the burden on local governments which essentially 
have to raise money through property taxes. So we don't want 
our property taxes to increase.
    And the Federal Government collects money through the 
fairest way I know, the graduated income tax. If you earn more 
money next year, you probably will take a little more on taxes, 
but you don't mind it because you're earning more. But property 
taxes, you can be unemployed and your property taxes go up. So 
one of the things we do in addition to helping fire companies 
is try to ease the pressure locally on property taxes.
    With that, let me refer to--turn the questions over to Mr. 
Miller, and I will take leave for just two minutes and be right 
back. Mr. Miller.
    Mr. Miller. Thank you. I have questions along the same 
lines. First of all, Chairman Boehlert's idea of having a 
grant-writing workshop for fire departments in this district 
was an outstanding idea. It's the first I had heard of that. My 
view is that when you hear a great idea, pause briefly to 
admire it and then promptly steal it. And I certainly plan to 
do that in my own district where I have a mix of--well, what we 
in North Carolina think of urban areas, perhaps you have a 
different definition of urban areas in New York. We consider 
Raleigh an urban area, Raleigh or Greensboro. But there is 
still a vast need in a town like Raleigh or Greensboro to go 
through the grant writing process, etc.
    And Caswell County in my district has a population of 
23,500. I don't know the per capita income, it's low. The 
percentage of the adult population that do not have a high 
school diploma is possibly a little higher than 40 percent. And 
in that county of 23,500 there are ten volunteer fire 
departments. They work together.
    But certainly going through grants is something that they 
would never have done before, and I wonder how well this is 
working for them.
    I know that you've had the unfair advantage of this grant-
writing workshop that Chairman Boehlert put on, but would it be 
your experience in dealing with the grants process through the 
fire command, is there an advantage that the bigger towns have 
or counties that have got more folks on their staff, actually 
have a staff, perhaps have a volunteer--have a grant writer, 
etc., or are the forms and the application procedure 
understandable enough, easy enough to deal with that small 
departments, people, volunteer, part time, can do it at nights 
and on weekends and get it done and have a fair shot? Chief 
Quill.
    Mr. Quill. Mr. Miller, I'm sure you're aware that all the 
grants are reviewed by fellow firefighters; they do not need to 
be a grant writer. Firefighters speak a certain language, as 
with any other business. And it is reviewed by firefighters. 
Firefighter--I can explain to Chief McQueen here what I need, 
or Mr. Perkins or Mr. DiNonno, whereas someone from your staff 
or the Science Committee would have no idea what I'm talking 
about. So that system works very well.
    My own personal belief is that there are more smaller 
volunteer departments that are receiving the grants than the 
actual paid departments and larger departments that are 
requesting it. That's just a personal assumption on my part.
    Mr. Miller. Chief McQueen.
    Mr. McQueen. I can agree with you there, Chief. We are one 
of the larger departments in Oneida County as volunteer, but it 
does seem that there's a recurrence of grants to smaller 
departments within our county.
    As regards to the process, I always conduct a needs 
assessment with my officers to see what we want to apply for, 
discuss that with my village officials. I put the grant 
together. The online form is very easy to use. I have the 
capabilities of giving the narrative to an English teacher to 
have her review it for me, so I know that everything is done 
correctly there. But it is very easy to do and it's very user-
friendly.
    Mr. Miller. Mr. Perkins.
    Mr. Perkins. Mr. Miller, I think it's been our experience 
that the application process is very easy to use and get 
through. As I said, some of these forms we're able to convey 
some questions we have about interpretations of certain parts 
of the application.
    But I still would agree that across the country, whether 
it's lack of these forms or what, there are still a certain 
degree of people out there that are probably in far more of a 
need for this equipment than we are that aren't either taking 
advantage of it or don't have the resources in house to apply 
for those grants.
    Mr. Miller. How can we--what do we need to do to improve 
that, to make sure that the less well off departments still 
have reasonable access to these programs? This is not--this 
program is not another example of the old saying that thems 
that has gets. This doesn't intend to benefit the bigger 
departments.
    Mr. Perkins. I don't know necessarily that that's entirely 
the case, because I think that there are departments out there 
that have far fewer resources than we have at our disposal and 
have more grants. I don't have an answer to how you get that 
out there with more people. Usually when you say free money, 
that usually perks people up. So going through the grant 
application for free money is pretty simple, so----
    Mr. Miller. Mr. DiNonno, if you want to address that too.
    Mr. DiNonno. One of the things that our office does is to 
pass on information such as this to all the departments within 
our county. And any time Mr. Boehlert sends notices out for any 
of these training programs, if we get them in a timely manner 
we in turn put that information back out to the departments to 
inform them of these training classes that are out there.
    Mr. Miller. A similar question or similar concern is about 
the match required. You say it's free money. It's not quite 
free, there is a requirement of a match. Has that requirement 
of a match proven to be an impediment for smaller, less--again, 
less well-financed departments, or is that working pretty well.
    I mean, obviously to get a piece of equipment like it for 
only 10 or 20 or 30 percent of the cost is a huge, huge 
advantage, but has that requirement for match proven to be a 
problem for some departments? Chief Quill.
    Mr. Quill. It has not been a problem in my department, but 
at the same time, the 10 percent that we had to contribute back 
for how we had to come up with the money for our matching 
grant, that's more equipment that we could have been furnishing 
our firefighters with. Presently it's not really a hindrance. 
It could be addressed and something done a little better with 
it. So we could be able to use that 10 percent; we could have 
used it.
    Mr. Miller. Do you know of any cases of departments around 
here that have not applied or perhaps even won a grant and been 
unable to come up with a match?
    Mr. Quill. Not to my knowledge, no.
    Mr. Miller. Chief McQueen.
    Mr. McQueen. I know there have been departments in our 
county that have not applied, and I think that was one of the 
reasons. I think if that percentage was lower, then you'll find 
more departments in the range of 15 to 20 volunteer 
firefighters will be able to enhance their fire, life-saving 
protection by applying with a lower matching fund.
    Mr. Miller. Mr. Perkins.
    Mr. Perkins. I would agree, Mr. Miller, with the two 
gentlemen ahead of me on that. We personally did not have 
trouble with that. It's obviously better if you can give your 
Board of Commissioners and our department a little more warning 
that that may be coming so that we can budget appropriately for 
it. But as Chief Quill said, that 10 percent is money that 
would be better spent--not necessarily better spent, but could 
be used in better ways for equipment also.
    Mr. Miller. Is it your sense that there's some inequity 
between the various departments in how well they can take 
advantage of this grants program, again, in a case where the 
richer departments do better or can seek more help than smaller 
departments?
    Mr. Perkins. The 10 percent may be a detriment to some 
departments. I don't know of any specific examples in our 
county that that didn't happen. That's very possible that that 
10 percent may have deterred some people from applying.
    Mr. DiNonno. I think you have to look at the issue of the 
dollar amount that they're applying for and what the 10 percent 
actually is. And for some of the smaller departments it 
probably is a burden to come up with some larger amounts if 
they in turn are going to ask for a larger grant award.
    Mr. Miller. I think all of you mentioned how relatively 
easy this grant process is, the fact that it's other firemen, 
other firefighters, other professionals who are reviewing the 
applications and they speak your language and they understand 
what you're telling them. That they--you know, they know what 
goes on around here, they know what breathing apparatus is, 
they know why you need it, and that makes it much easier.
    Have any of you been part of that peer-review process? Have 
any of you been among those reviewing the grants?
    Mr. Quill. No, sir.
    Mr. McQueen. No, sir.
    Mr. Perkins. No, sir.
    Mr. Miller. Do you know anyone from this area who has, from 
the area? No.
    Chairman Boehlert. It's my understanding that FEMA's asked 
for volunteers to participate in this program, and so often 
when you have the volunteer companies they've got full-time 
jobs in addition to what they're doing with their volunteer 
company. But we have a number of New Yorkers that have 
participated in a peer-review panel, it just so happens that 
present company has not participated. Not for lack of desire, 
but lack of opportunity in line with all the rest of their very 
heavy schedule. We've got one in the audience.
    Mr. Aswaed. I'd like to comment on just that last question.
    Chairman Boehlert. Please stand up.
    Mr. Aswaed. My name's Mark Aswaed. I'm a fire chief from 
Fleming and Throop Fire Department.
    In regards to your question is 10 percent machining fund 
equitable for all departments, and that is a resounding no. I 
want everybody to realize that for what we're representing here 
in this county, 10 percent is doable for most of the projects 
we're applying for.
    But I--aside from being fire chief of Fleming, my full-time 
job is selling fire apparatus. And I deal with fire departments 
throughout New York and northern Pennsylvania. And there's 
departments out there that do not apply for the grants because 
they just cannot afford the 10 percent. They might want to buy 
a couple sets of turnout gear, but that is beyond their means 
with a matching 10 percent.
    So I just wanted to make sure--when you ask that question, 
I wanted to make sure you folks understood that there are 
departments out there making--or operating off $1,400 a year in 
operating budget. There's just no way that they can afford, you 
know, five percent.
    So if there is a means of looking at that aspect, there's 
going to be a lot more smaller departments that could take 
advantage of some of this so-called free government money.
    Chairman Boehlert. Thanks very much. Mark, would you give 
your name to the reporter so she can get it for the official 
record.
    Mr. Aswaed. Mark Aswaed, A-S-W-A-E-D.
    Mr. Miller. My concern is I do want to make it available to 
the poorer departments. On the other hand, I don't want to have 
a way to come up with identifying the poorer departments by 
having them fill out a 25-page form, which goes to the other 
problem that we've got of making the program accessible.
    Is that something--you said you hadn't really observed it. 
Do you think that that would be a helpful thing to have some 
kind of adjustment in the program, the Fire Grant Program, for 
those departments that really don't have a resource?
    Mr. Quill. I agree that would be very helpful. For smaller 
departments that cannot come up with 10 percent, it would 
certainly be helpful. I don't know how we would go about it, 
but I think it would be well suited.
    Chairman Boehlert. Thank you. Thank you very much, Mr. 
Miller.
    One of the things we did when I tailored this initiative 
program is to--we want to make sure that we don't supplant 
local contributions, and there is always the danger that when 
the Federal Government comes up with a new program, local 
governments say, oh, this relieves us of any burden, and 
they'll withdraw the support. So if you get a dollar from 
Washington but lose a dollar from home, you're no farther 
ahead.
    And I tailored this after and I've had experience, I'm a 
previous chairman of a subcommittee on water resources and the 
environment, and we set up a state revolving fund for water 
projects, drinking water and wastewater treatment. And that's a 
loan program.
    And one of the things we did, and Mark, to address your 
specific question, we recognized there are some legitimate 
hardship cases, hardship communities. So maybe we ought to 
think about some sort of provision in the bill that would 
address the legitimate hardship communities.
    But basically our thought is that if we require some local 
share, only 10 percent, that 90 percent from Washington, some 
local share, that spreads the money farther. If I give a 100 
percent grant, well, you're going to have to give out fewer 
grants. We want some local participation. And we work with all 
the state fire associations, State of New York, the Volunteer 
Association, and the International Association of Fire Chiefs. 
We work with all these to fashion a program.
    Let me ask you this: The program's been in operation three 
years now. You've seen it evolve; you all have experience with 
it. We know about the success. We know about what it's done for 
Auburn, allowing you to buy this gear, and we know what it's 
done for Whitesboro, we know what it's done for Aurelius. What 
is the biggest deficiency that you see? If you were sitting on 
this side of the table with us, what change would you make to 
the program, if any? I mean, you know, I'm asking you this out 
of the blue, you perhaps haven't thought too much about a very 
good program that seems to be working well, but is there any 
deficiency that you can think of offhand? Chief McQueen?
    Mr. McQueen. Actually, there's two. We need more money, 
one. And the second of all is feedback on why grants were not 
successful. Especially for departments that don't have grant 
writers.
    Chairman Boehlert. The chief says to no one's surprise that 
we need more money for the program. And I'll tell you this: 
Every advocate for every program makes the same basic plea, and 
it's our challenge to try to sort out these things and make a 
difference.
    So, more dollars and the feedback, so that if you submit an 
application, if you're not successful, you want sort of a 
debriefing, where did you miss the boat, what--all right, Chief 
Quill?
    Mr. Quill. I agree with Chief McQueen. The biggest thing is 
to find out why you were turned down for a particular grant; 
what was the reasoning behind the firefighters in Washington 
just giving you a thumbs down on a particular issue.
    To us it may be the most important thing in the world to 
have, but if we don't know what we've done wrong, we can't 
correct it.
    Chairman Boehlert. You know, counsel just points out that 
the National Science Foundation, who is under our jurisdiction 
with the Science Committee, and if you apply to the National 
Science Foundation, usually it's universities and they're 
applying for millions of dollars for research grants, and they 
don't get it, they get a written critique.
    Now, it's not as easy to do a written critique when there 
are so many, but at least we should have some way to get a 
response. Maybe you can call in and reviewers would make some 
comment. So if you call in and you get someone that would say, 
well, your review indicated that you were deficient here or 
deficient here, that would help you for the next time around.
    Mr. Quill. At the very least a check sheet saying what was 
wrong; was it the narrative, was it the background information. 
At the very least that would be helpful to the departments.
    Chairman Boehlert. Okay, fine. Chief McQueen is nodding his 
head yes.
    Mr. McQueen. I totally agree.
    Chairman Boehlert. Mr. Miller? We'll go back and forth 
here, we just want to make it fair. We want this to sort of be 
a dialogue.
    Mr. Miller. Okay, thank you. Mr. DiNonno mentioned that he 
thought recruitment and retention was an issue that the towns 
were facing, the departments. That I'm sure is more true to the 
volunteer fire departments. He said he didn't have an answer, 
but do you have any--what can we do to improve the recruitment 
and retention of firefighters, volunteer and professional? 
Chief Quill.
    Mr. Quill. It's a little ironic that you're here today 
because going on at the same time we're interviewing for 
positions, vacant positions for retirees. Recruiting for us is 
not a problem. But having the money to hire additional 
personnel, that is what hurts us presently.
    Hopefully the SAFER Act that Congressman Boehlert sponsored 
and I had the privilege of appearing in Washington for, 
hopefully that will help paid departments such as myself. 
Volunteers, recruiting retention, I really shouldn't address 
that; I'm not versed in that.
    Mr. Miller. Chief McQueen.
    Mr. McQueen. I could probably share a couple things. One of 
them is monetary support for a media campaign in our 
communities and our county. Support for a service awards 
program for recruitment and retention of volunteers. Some sort 
of tax credit. And support for those younger firefighters that 
join departments that want to continue going on to college and 
enhancing that type of a program which we have for New York 
State right now.
    Mr. Miller. Mr. Perkins.
    Mr. Perkins. Two things come to mind, Mr. Miller. One of 
them would be there are retirement programs out there currently 
that volunteer fire departments can take part of. 
Unfortunately, that is a program that I would estimate more 
financially well-off fire departments take advantage of. My 
department is not able to be part of that program because of 
the financial constraints.
    Chairman Boehlert. What would be the initial contribution 
for that program? I know some of the volunteer companies, very 
limited number, have gone into the program, and that's an 
incentive, inducement to get people to sign. But what would it 
cost Aurelius, for example, if you decided to go with that 
program?
    Mr. Perkins. I don't know, Mr. Chairman, I'm not aware of 
what that number is.
    Chairman Boehlert. But it's big bucks; it is more than your 
availability.
    Mr. Perkins. It's my understanding that it is a fairly 
substantial amount of money. And I know that the departments 
that have tried it, it's been successful and it's had mixed 
results on how successful it is. Unfortunately, we don't have 
the opportunity to test that to see if it is successful or not.
    Another thing that's always on everybody's mind, maybe some 
sort of efforts for health care for volunteer firefighters, 
something to help for health insurance. There are, I'm sure, a 
large number of volunteer firefighters out there that have no 
health insurance coverage in one form or another. So there's 
two areas there that probably would be beneficial.
    Mr. McQueen. If I could just add one more. When I talk 
about the tax credit, it would be a federal income tax 
reduction for all fire and ambulance personnel.
    Mr. Miller. I'm sorry, say that again.
    Mr. McQueen. A federal income tax reduction for both fire 
and EMS.
    Chairman Boehlert. Let me ask you this: You know that it's 
changed with the new Department of Homeland Security, this new 
operation. So now the Office of Domestic Preparedness has sort 
of taken over this grant program. Do you have any direct 
experience and comment on the change from where it was under 
FEMA to now under ODP, or has that not touched you yet?
    Mr. McQueen. Well, it hasn't touched us yet. The only thing 
I'd like to say is I just hope it doesn't take away and just 
focus on one thing in Homeland Security, I want it to focus on 
public fire education, I want it to focus on fire EMS, give it 
the total picture, not just homeland security.
    Chairman Boehlert. Chief Quill.
    Mr. Quill. I agree. I don't want us to get lost into 
another bureaucracy where our money is channeled to other 
areas. Everything is important, but I would prefer that it stay 
with the fire service. That's who needs the monies right now is 
fire service.
    Chairman Boehlert. Mr. Perkins.
    Mr. Perkins. I would agree with that also, Chairman. We've 
had a great relationship with the people at FEMA. Any questions 
that we've had about our grants, any changes that were needed--
that we needed to make, the person on the other end of the 
phone is very well versed on the fire service, understood our 
needs and any changes we needed to make, and the red tape to 
this point has been very minimal.
    We have concerns also that with it going into a different 
bureau that we may get lost in the works to a certain degree.
    Chairman Boehlert. Well, my bill, a bill to reauthorize it 
for the new fiscal year October 1, moves it back to FEMA from 
ODP. And ODP is very important, what they're doing, but, you 
know, they're thinking about the big--these natural disasters. 
Hopefully, prayerfully, we're never going to have another one 
in America. But if we do have one in the United States of 
America, it's unlikely to be in Whitesboro or Aurelius, it's 
more likely to be in, God forbid, New York or Los Angeles, 
where there are literally millions of people.
    So the FEMA program has run in the first couple of years 
exceptionally well, as you all have testified to, and my 
experience is all change is not necessarily good. If something 
is working as intended, if it's serving the audience you're 
trying to serve, and we get this whether we're in New York or 
North Carolina or Texas or Oregon, people in the firefighting 
community say this program is too long in coming, finally it's 
here, and we like it, we're using it to good advantage and it's 
working well, don't screw it up, in blunt terms.
    And so my pledge to you on the part of the Science 
Committee, which has jurisdiction, we're going to do our level 
best not to screw it up. It's working well, we want to keep it 
working well.
    Is there anything any one of you might want to add for the 
record before we wrap this thing up? All right.
    Just let me say to all of you, and Chief Quill, you know, 
that and David James--I think maybe he's gone--oh, DJ is still 
there, the chief up in Weedsport. Chief McQueen, you've been in 
Washington and so has Mr. Williams and Chief Tecomowitz 
(phonetic), everybody's been down. This hearing is just like we 
do in Washington. We get Members of Congress up here talking 
about a program in support, every program has its pluses and 
minuses, so we call in the experts like you to tell about your 
experience. And you have shared your experience with us, and 
it's mostly positive, but you have some constructive 
suggestions on what we might be able to do to make the program 
better.
    So Congressman Miller and I will go back to Washington, 
there will be an official record of this hearing, the staff 
examines it carefully, it's shared with our other colleagues.
    When we have these hearings across America, the taxpayer 
should be pleased to know we don't put 50 Members on a plane 
and fly them from here to there at taxpayers' expense. What we 
always insist on is that they be bipartisan; they're not 
political, we have got a Democrat and a Republican, and then we 
have witnesses who have real-life experience dealing with the 
subject matter before the Committee.
    In our case, the Science Committee, we have Nobel 
laureates, we have people that we all would acknowledge are 
geniuses in their chosen field. Guess what, if there were a 
prize for public service, we'd give it to you, our first 
responders. You're geniuses in your field. And every single one 
of us in this audience have every reason to thank the 
firefighters of America, paid or volunteer, all professional, 
for which you do so well for us each and every day.
    And on behalf of the Science Committee, on behalf of the 
Congress, I want to say to you and to your colleagues thank you 
very much. This hearing is adjourned.
    [Whereupon, at 2:21 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
